<html>
<title> - COUNTERTERRORISM EFFORTS IN AFRICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   COUNTERTERRORISM EFFORTS IN AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 7, 2017

                               __________

                           Serial No. 115-103

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-755PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2740574867445254534f424b570944484a09">[email&#160;protected]</a>                     
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah<greek-l>As of 
    12:44 pm 11/29/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable John J. Sullivan, Deputy Secretary, U.S. Department 
  of State.......................................................     4
The Honorable David J. Trachtenberg, Acting Under Secretary of 
  Defense for Policy, U.S. Department of Defense.................     9

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John J. Sullivan: Prepared statement...............     7
The Honorable David J. Trachtenberg: Prepared statement..........    11

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
Material submitted for the record by the Honorable Bradley S. 
  Schneider, a Representative in Congress from the State of 
  Illinois:
  Identification of Counties Pursuant to the Child Soldiers 
    Prevention Act, U.S. Department of State, June 21, 2017......    59
  Dissent Channel: Concern Regarding the Secretary of State's 
    Decision to Exclude Afghanistan, Burma, and Iraq from the 
    2017 Child Soldiers Prevention Act (CSPA) List...............    67
Material submitted for the record by the Honorable Ted Lieu, a 
  Representative in Congress from the State of California:
  Letter addressed to the Honorable James Mattis, Secretary of 
    Defense, dated March 10, 2017................................    71
  ``On the Eve of Congressional Hearings, New Evidence About 
    Alleged U.S. Massacre in Somalia,'' by Christina Goldbaum, 
    December 6, 2017.............................................    78
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    86
Written responses from the witnesses to questions submitted for 
  the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    88
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    97
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................   118
  The Honorable Lois Frankel, a Representative in Congress from 
    the State of Florida.........................................   119
  The Honorable Bradley S. Schneider.............................   121

 
                   COUNTERTERRORISM EFFORTS IN AFRICA

                              ----------                              


                       THURSDAY, DECEMBER 7, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. And before 
we begin I would like to welcome Representative John Curtis of 
Utah to the committee. He is a successful mayor and 
businessman, and he will serve on the Subcommittee on Europe, 
Eurasia, and Emerging Threats, and on the Subcommittee on the 
Middle East and North Africa. So welcome, John.
    Today this hearing is on counterterrorism efforts in 
Africa. And we examine U.S. counterterrorism efforts across the 
continent. This committee has long advocated for strong, 
sustained relations between the United States and the countries 
in Africa. And from the Electrify Africa Act and the 
reauthorization of the African Growth and Opportunity Act to 
the End Wildlife Trafficking Act, we have worked on a 
bipartisan basis to provide the tools for greater engagement 
with a continent that is home to some of the world's fastest 
growing economies, but also some major security challenges.
    As I said in our May hearing on U.S. interests in Africa, 
for our efforts on the continent to succeed, we must help our 
partners confront the threat of radical Islamist terrorism. 
From Al-Shabaab in Somalia, to Boko Haram in Northern Nigeria, 
to al-Qaeda and ISIS in Libya, and their affiliates across the 
Sahel, terrorists seek to destabilize governments by 
threatening vulnerable communities, often by exploiting local 
grievances. This committee and Congress as a whole has 
supported our uniformed men and women in this fight, including 
by voting last year to require a strategy to defeat Boko Haram.
    The death of four U.S. soldiers in Niger in early October, 
and a Navy SEAL in Somalia last May are stark reminders of the 
danger inherent in these efforts. This is why the War Powers 
Resolution requires notification to Congress when forces 
equipped for combat are deployed abroad.
    AFRICOM is working with the FBI and other agencies on an 
investigation into what happened in Niger, which military 
officials expect to be completed in January. After the grieving 
families are briefed on the findings, Congress will be eager to 
ensure that appropriate steps are taken to lessen future risks 
to our forces.
    This hearing will take a broader look at U.S. 
counterterrorism efforts across Africa. While the Department of 
Defense often plays the most visible role in these efforts, the 
State Department is charged with developing the overall 
strategy. State also plays a significant role in security 
assistance, providing countries like Niger with armored 
vehicles and other equipment that they need to confidently take 
the fight to the enemy.
    In recent years, DoD funding for security assistance in 
Africa has surpassed that provided by State. However, thanks to 
a bipartisan effort by this committee, most of these 
authorities now require State Department concurrence, as well 
as joint development, joint planning, and joint implementation. 
Many also require efforts to bolster democratic values of 
partner forces, including civilian control of the military. 
Combating terrorism and building stability is as much a 
political as military challenge, so the State Department must 
lead on these efforts.
    It is important for members to understand that while 
successive administrations have used the 2001 AUMF to conduct 
strikes in Somalia and Libya, the majority of U.S. 
counterterrorism operations in Africa are carried out under 
other authorities that Congress has provided. Together these, 
as we call them, intelligence, surveillance, reconnaissance, 
and train and equip, and advise and assist missions build the 
capabilities of our partner forces while helping them to take 
on current threats.
    Of course, military efforts alone cannot defeat radical 
ideology. Severe poverty, lack of education, local grievances, 
and weak governance provide the ideal context for this hateful 
ideology to take hold in the first place. As AFRICOM's first 
commander told the committee in May, it is in our best interest 
to focus on sustained development engagement, just as we focus 
on sustained security engagement. That is a long-term 
commitment but one in our security interests. And I look 
forward to hearing how both departments are working to support 
the development of strong, resilient African governments that 
deny terrorist groups room to grow.
    And let me turn now to our ranking member, Mr. Eliot Engel 
of New York.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
this hearing and thank you for leading CODEL to Africa. This 
committee realizes how important Africa is and I am glad that 
we are having this hearing this morning.
    Countering the terrorist groups in Africa is a clear 
foreign policy priority and it deserves this committee's 
attention. Mr. Deputy Secretary, Mr. Acting Under Secretary, 
welcome to the Foreign Affairs Committee.
    Around the world hotspots are burning and American 
leadership is needed, but in the State Department with all the 
vacancies and all the cutbacks it seems the strategies are 
muddled or seem muddled, senior posts are vacant, partners and 
adversaries view the United States with uncertainty. So I hope 
you can both shed some light today on this phenomenally complex 
issue.
    I have a number of concerns about how we are dealing with 
terrorism in Africa, and the first is our military involvement 
there. As the chairman pointed out, the recent deaths of four 
American service members in an ambush in Niger thrust this 
issue into the spotlight. There has also been an increase in 
the number of American air strikes in Somalia. For those 
strikes the administration uses the same legal authority to 
justify military action as it and other administrations have 
for many other counterterrorist operations all over the world, 
which is the post-9/11/2001 AUMF, Authorization for the Use of 
Military Force.
    I don't think any of us who voted on that measure--and I 
did 16 years ago--envisioned that it would be used as a blank 
check to justify sending our men and women in uniform into 
harm's way whenever a terrorist threat emerges. We need a new 
AUMF. We need to have a serious debate about how, when, and 
where our military is currently fighting.
    And I need more answers about those four fallen heroes. I 
cannot help but wonder what happened to that thirst for 
oversight we saw a couple of years ago when several Americans 
died on the African continent in circumstances shrouded by 
uncertainty. Yet, our military's role in dealing with these 
extremist groups should be only one aspect of our approach to 
fighting terrorism.
    I agree with the many national security experts who say our 
strategy must go far beyond fighting fire with fire. We must 
also look at the root causes that allow terrorism to take hold 
in these countries. The places in Africa where terrorists 
operate often face a underlying level of instability. 
Governments are unresponsive and ineffective in providing for 
the needs of their citizens.
    Some of our closest partners in this effort, Cameroon, 
Chad, and Uganda, are led by men who have clung to power for 
decades. In one recent study more than 70 percent of Africans 
surveyed reported mistrust of the police and military. And that 
is no great surprise given the behavior of some of our 
counterterrorism partners: Arbitrary arrests, forced 
disappearances, and torture in Cameroon; 1,000 protestors 
killed and another 11,000 detained in Ethiopia; and in Uganda, 
Kenya, and Burundi civilians speaking up for their rights and 
demanding accountable leadership are met with violent 
crackdowns, bloodshed, and killing.
    These are the things that drive people toward violent 
extremism and that attract terrorists seeking to exploit 
vulnerable populations. When human rights, the rule of law, and 
justice systems are weak Al-Shabaab, al-Qaeda, and others find 
safe haven. And that is what we need to focus on. A military-
heavy strategy means that we are pushing back against these 
groups after they are already established. Of course that is 
important and we should continue doing that, but we must also 
work to deny these groups the opportunity to flourish in the 
first place.
    The State Department and USAID have the expertise to do 
that. Our diplomats in development professionals work to 
promote justice and the rule of law, to build more inclusive 
societies through better education, healthcare, and economic 
opportunity, encouraging full participation in societies rather 
than withdrawing into extremism. These are indispensable tools 
in the fight against terrorism.
    That is why I am baffled that the administration wants to 
cut the budget for these agencies by a third. Frankly, I am 
frustrated that the State Department appears to be descending 
into dysfunction. Not the fault of anybody here, but if you cut 
back and don't fill senior positions what else do you have? As 
we are reading day after day after day about the dysfunction. 
Foreign policy leaders, from former Secretaries Madeleine 
Albright to Ambassadors Nicholas Burns and Ryan Crocker, are 
all sounding the alarm. So I would like to hear how slashing 
the State Department and USAID helps us stop violent extremism.
    How does gutting vital efforts help us get at the root 
causes of this problem? Why would we cut resources for 
democracy promotion, for human rights, for foreign assistance 
when we know that these cost-effective investments will help us 
grapple with the problem of terrorism?
    What I don't want to hear and I won't accept is that we 
can't afford it. The President is ready to sign legislation 
that will blow a $1.5 trillion hole in the budget to give tax 
breaks to corporations and billionaires, so ``we can't afford 
it'' line doesn't pass the test anymore. If we are serious 
about fighting terrorism, let the military tackle the security 
threats, but let's make a serious effort to stop it before it 
starts.
    Gentlemen, I look forward to your testimony. I thank you, 
Mr. Chairman, and I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    This morning we are pleased to be joined by a very 
distinguished panel. Mr. John Sullivan is the Deputy Secretary 
of State. And prior to this position he was a partner at the 
Mayer Brown law firm where he co-chaired its national security 
practice. Prior to that Mr. Sullivan served in senior positions 
at the Justice Department, Defense Department, and Commerce 
Department.
    The Honorable David Trachtenberg was confirmed by the U.S. 
Senate on October 17th. Dr. Trachtenberg is Principal Deputy 
Under Secretary of Defense for Policy. And he is currently 
serving as the Acting Under Secretary of Defense for Policy. 
Prior to his work in the executive branch and private sector he 
served on the staff of the House Armed Services Committee. So 
it is good to see him again.
    And without objection the witnesses' full prepared 
statements are going to be made part of the record. Members 
here are going to have 5 calendar days to submit any statements 
or questions to you, or any extraneous material for the record.
    And if you would, Mr. Sullivan, please summarize your 
remarks. We will start with you.

STATEMENT OF THE HONORABLE JOHN J. SULLIVAN, DEPUTY SECRETARY, 
                    U.S. DEPARTMENT OF STATE

    Mr. Sullivan. Good morning. Thank you, Mr. Chairman, 
Ranking Member Engel, members of the committee for the 
opportunity to speak with you about U.S. counterterrorism 
efforts in Africa.
    Last month, Secretary Tillerson hosted an Africa 
Ministerial that included delegations from 37 countries, the 
African Union, and members of the private sector and civil 
society. Advancing our deep and expanding counterterrorism 
cooperation on the continent was a major focus of the 
ministerial, along with increasing trade, good governance, and 
protection of human rights.
    To reinforce these priorities, at Secretary Tillerson's 
direction I traveled to Sudan, Tunisia, and Nigeria 2 weeks ago 
to engage our willing and increasingly capable counterterrorism 
partners.
    In Sudan, senior leaders stressed their interest in working 
with the United States to strengthen regional security, and 
promote greater peace and stability throughout the region and 
the world. We are encouraged by the Sudanese Government's 
willingness to work with us to eliminate the threat posed by 
ISIS and other terrorist groups operating in the region, as 
well as the government's commitment to cut all military and 
trade ties with North Korea.
    In Tunisia, I met with both the Tunisian and Libyan 
Governments. Tunisia, like Morocco and Algeria, has made 
significant strides in preventing the spread of ISIS and other 
terrorist groups within its borders through the implementation 
of military and paramilitary operations, greater law 
enforcement cooperation among allies and partners, and improved 
measures to reintegrate returning foreign terrorist fighters.
    Libya is perhaps our greatest counterterrorism challenge in 
Africa. ISIS and other terrorist groups have sought to exploit 
political instability and find safe haven in Libya's vast 
ungoverned spaces, making the country both a source of and 
destination for foreign terrorist fighters. We continue to 
empower the Libyan Government to address these challenges. 
Libyan Prime Minister Fayez al-Sarraj's government and its 
aligned forces have been reliable partners in countering these 
threats, and are in regular communication with the 
administration and with our Ambassador Peter Bodde.
    President Trump and Secretaries Tillerson and Mattis met 
with the Prime Minister just last week to discuss a range of 
issues, including counterterrorism. We also strongly back the 
efforts of U.S. Special Representative Salame to facilitate a 
political solution and prevent a civil conflict.
    Nigeria was the last stop on my trip, and it is a crucial, 
a critical U.S. partner that faces a number of threats. Nigeria 
leads the regional fight against Boko Haram, ISIS-West Africa, 
and other terrorist groups that continue to fuel one of the 
worst humanitarian crises in the world. Since 2009, terrorist 
groups in the region have killed more than 20,000 people and 
abducted thousands of women and girls, causing at least 2 
million people to flee their homes. This instability has 
affected the larger Lake Chad Basin region, prompting the 
creation of a Multinational Joint Task Force comprised of 
Benin, Cameroon, Chad, and Niger, all partners that have asked 
for U.S. assistance to root out terrorism.
    We consider it in our national interest to support Nigeria 
and its neighbors in this fight. To ensure our continued 
cooperation, we have also underlined to these partners, and 
those across the continent, that their security forces must be 
professionalized, brought into an accountable chain of command, 
and held responsible for human rights abuses.
    These principles are also the backbone of our engagement in 
Somalia, where we are committed to helping Somalia reform its 
security sector and improve governance, with a focus on 
reducing corrupt practices and increasing transparency and 
accountability. In coordination with that effort, U.S. forces 
are committed to using all authorized and appropriate measures 
to protect Americans and to disable terrorist threats such as 
Al-Shabaab and ISIS.
    Somalia is also a prime example of how we are working with 
the African Union, the United Nations, and other multilateral 
organizations to counter terrorism, promote stability, and 
support post-conflict peace building. Regional cooperation has 
clearly produced results, as we have seen in the creation of 
the G-5 by Burkina Faso, Chad, Mali, Mauritania, and Niger in 
2014. Last month Secretary Tillerson announced our commitment 
to provide an additional $60 million in support to the G-5 
Sahel Joint Force countries. This is in addition to the more 
than $800 million in bilateral assistance we have provided to 
G-5 countries since 2012 to help develop effective security 
forces.
    In closing, I want to underscore a message that I made 
clear during all my stops on my trip: While the United States 
is the largest supporter of peacekeeping and counterterrorism 
across Africa, the Secretary and I firmly believe that 
traditional counterterrorism efforts alone are not enough. 
Economic reform, good governance, and a respect for human 
rights must be prioritized to establish and maintain peace and 
security throughout the continent.
    We will continue to support our partners' efforts to 
strengthen democratic institutions; improve citizen security 
and justice; respect human rights; stimulate economic growth, 
trade, health, and investment; and promote development and 
education. The United States continues to emphasize respect for 
human rights as a fundamental part of our counterterrorism 
strategy, which includes thorough Leahy vetting of our security 
force partners.
    Thank you for giving me the opportunity to speak with you 
this morning. And I look forward to your questions.
    [The prepared statement of Mr. Sullivan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you.
    David.

STATEMENT OF THE HONORABLE DAVID J. TRACHTENBERG, ACTING UNDER 
  SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Mr. Trachtenberg. Good morning, Chairman Royce, Ranking 
Member Engel, and members of the committee. Let me begin by 
thanking you for the opportunity to appear here with Deputy 
Secretary of State Sullivan. This is my first testimony since 
assuming my position just a few weeks ago as the Principal 
Deputy and the Acting Under Secretary of Defense for Policy. 
But as a former House committee staffer, I am keenly aware of 
the important oversight role Congress plays on national 
security issues, and I appreciate being here today.
    Before I go any further, I want to express on behalf of the 
entire Department of Defense our deepest sympathies to the 
families of the soldiers killed in the Niger ambush: Staff 
Sergeant Bryan Black, Sergeant La David Johnson, Staff Sergeant 
Dustin Wright, and Staff Sergeant Jeremiah Johnson. We also 
hope for the continued speedy recovery of both Captain Michael 
Perozeni and Sergeant First Class Brent Bartels.
    We honor the service and sacrifice of these Americans, and 
we owe it to them, their families, and their fellow soldiers to 
investigate the events of October 4th thoroughly. The death of 
any service member is something that has a profound effect on 
all of us at DoD, and the investigation is proceeding with due 
diligence and care.
    As we have briefed you and other committees, the 
investigation is ongoing. And we do not want to provide 
inaccurate or incomplete information. We must, therefore, wait 
for the investigation to be completed by AFRICOM before we can 
have the full picture of what happened. However, we will inform 
Congress on the conclusions of the investigation as soon as 
possible after the families are briefed.
    That said, we must remember that our efforts in Africa are 
vitally important. Today our African partners are confronting a 
complex and growing threat from multiple terrorist groups, 
including ISIS and al-Qaeda affiliates, and other extremist 
groups like Boko Haram. These groups exploit instability, weak 
governance, vulnerable populations, social media, and vast 
spaces to establish safe havens, spread their toxic ideology, 
and attack all who do not subscribe to it.
    While DoD maintains expert counterterrorism forces, the 
best in the world bar none, capable of conducting precision air 
strikes and complex raids to protect our interests, we are 
focused principally on helping our partners build their own 
capabilities and expand their capacity to fight these terrorist 
organizations and stem further violence and instability.
    Secretary Mattis has placed a significant emphasis on 
building and strengthening partnerships to both lessen the 
demand for U.S. forces and to ensure sustainable indigenous 
solutions to these problems. In the simplest terms, DoD seeks 
to work by, with, and through our partners in Africa to find 
African solutions to African problems. This means that military 
operations against terrorist organizations are conducted by 
host nation forces. U.S. forces work with our partners to 
train, equip, advise, enable, and accompany them on operations 
and improve their effectiveness and professionalism. And 
through this cooperative relationship, the United States and 
our partners in Africa achieve our shared strategic objectives.
    As we work to build partner capacity I want to note that we 
are not simply looking at military effectiveness, but we also 
place a high value of professionalization of our partners' 
militaries and, specifically, to improving their adherence to 
norms for respecting human rights.
    In addition to bilateral partnerships we also seek to work 
closely with regional organizations like the African Union and 
the G-5 Sahel Joint Task Force. We also partner with other 
nations like France, who have committed thousands of troops to 
share burdens on this vast continent. And, of course, our most 
important partners are the other departments and agencies of 
the United States Government.
    There is no purely military solution to the terrorism 
threat in Africa, and DoD is committed to promoting whole-of-
government solutions. This requires that we leverage the full 
range of resources, talent, and expertise to address these 
problems. This is particularly true of our colleagues in the 
Department of State and USAID. And we are committed to working 
together with them to protect the United States, our citizens, 
and our interests in Africa.
    Thank you for the opportunity to testify to this committee 
on a topic of such critical importance. The Department of 
Defense appreciates your leadership and oversight in this area, 
and I look forward to your questions.
    [The prepared statement of Mr. Trachtenberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, David.
    Let me just say to Deputy Secretary Sullivan that we are 
very eager to hear about your trip to Tunisia, to Sudan, to 
Nigeria. All three of these countries are important in terms of 
our counterterrorism efforts. And while you were over there I 
know that Secretary Tillerson had several dozen African foreign 
ministers here for meetings in Washington.
    We also had the opportunity on the committee to sit down 
with Nikki Haley, Ambassador Haley, after her visit to Africa. 
And we ourselves on the committee have been engaged. We have 
been to these countries in order to discuss these issues as 
well.
    So we are very glad you made the trip. I think this high 
level engagement is important. But one point I would make is it 
can't substitute for the day-to-day efforts of our Ambassadors 
on the ground there. And as you know, Ambassadors have 
expressed, and members here have expressed concerns about the 
redesign. So we, we want to maintain a robust presence 
overseas, including Africa. And having diplomats on the ground 
strengthens our counterterrorism efforts there.
    Can you and Under Secretary Trachtenberg walk us through 
the Department of State and Department of Defense on how you 
work together to build capabilities for our African partners? 
If you would explain some of that.
    And then maybe the other thing that I would like you to 
focus on is the greatest challenges that you face when working 
with African militaries and African governments.
    I will give you the floor.
    Mr. Sullivan. Thank you, Mr. Chairman.
    Well, the Department of State and the Department of 
Defense, and in particular AFRICOM, General Waldhauser, and our 
Ambassadors in the 51 countries on the continent of Africa have 
developed a very close working relationship. I can give you a 
particular example that I spent a lot of time focused on during 
my trip, and that is the cooperation between our Ambassador to 
Libya Peter Bodde and General Waldhauser on not just 
counterterrorism but political and economic development, and 
stabilization in Libya.
    If I could for a moment just to address the concern you 
raised about having Ambassadors in the field, I will be the 
first to concede, as I have done before this committee, that we 
have not done enough to get appointees in place in positions at 
the Department and Ambassadors into posts. But in Africa we 
actually have 90 percent of our posts have Ambassadors in 
residence at posts, or they have been confirmed and are en 
route. So, 44 out of the 51 countries in Africa have an 
Ambassador.
    So that is what I can't describe as a good news story for 
the Department across all regions, for Africa we do have 90 
percent of our Ambassadors at posts.
    I will defer to Under Secretary Trachtenberg for further 
comment.
    Mr. Trachtenberg. Yes, Mr. Chairman, let me echo what 
Secretary Sullivan has said. In terms of the relationship 
between the Department of Defense and the Department of State 
on this particular issue the cooperation and coordination is 
extremely good.
    What I want to emphasize here is that in many respects the 
Department of Defense plays a supporting role to the Department 
of State and other agencies because the problems of terrorism 
that we are talking about on the African continent deal with, 
at their very heart, some of the issues that you mentioned in 
your opening statement: The issue of weak governance in some of 
these countries; poverty; exploiting local grievances.
    Our work within DoD and working with our partner nations is 
to help provide those partner countries with the capacity 
themselves to be able to, to be able to defend themselves 
against extremist organizations in terrorist capacities. But 
that is, of course, not the end of the story. And so that is 
why we work very closely with our State Department colleagues 
to make sure that once security is provided, effective tools 
can be put in place to improve governance and deal with some of 
the underlying issues that give rise to some of these violent 
extremist organizations in the first place.
    Chairman Royce. My time has expired. I will go to Mr. Eliot 
Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Sullivan, I appreciate all your hard work and your 
efforts at outreach. I sincerely do. And I think that you are 
doing an outstanding job. And I appreciate your contact with 
the committee and your accessibility. But, as you know, and as 
we have discussed, and as I just mentioned before you cannot 
pick up a newspaper these days without seeing a headline about 
how Secretary Tillerson is hollowing out the State Department, 
and particularly the Foreign Service.
    Mr. Secretary, when you testified before the committee in 
late September you acknowledged that morale at the Department 
was low. Let me ask you the same question, how is morale today? 
And what will you do to improve morale and better utilize our 
country's diplomats?
    Mr. Sullivan. Thank you, Congressman Engel. Morale hasn't 
improved. It is not something that I am proud to say. But it is 
a problem that the Secretary and I have spoken about. He is now 
on a trip to Europe. He is getting back later this week.
    We will be coming up here to brief members of this 
committee and other Members of Congress and Senators on an 
update on the redesign which I have testified about previously, 
and also have a town hall with the employees, the women and men 
of the State Department to describe the work that has been done 
on the redesign in the 2 months since I last testified before 
this committee, but to renew his commitment to the Department. 
I think one of our greatest failings has been a lack of 
communication, communication particularly with our own career 
professionals, both at State and in the field, and a 
rededication to do a better job of that.
    And I, of course, with this committee commit that to you as 
well that I am committed both to communicating with our men and 
women about our plans and their value to us, and also to you 
and the members of the committee.
    Mr. Engel. Thank you. As I have mentioned before, and I 
want to say it again on the record that I am very troubled by 
the redesign. I am worried that the redesign will be used as an 
excuse to cut back. And I don't think that we should be cutting 
back at a time like this when, hopefully, we use diplomacy to 
prevent wars. And no matter where you go, no matter where you 
travel around the globe, Africa and any place else, people will 
pull you aside and tell you how demoralized they are, how they 
really feel that the administration is sort of going after the 
State Department. And it really bothers me a great deal.
    Those of us that have been on this committee for decades 
appreciate the good work that our diplomats do and that our 
people do all around the world, as I am sure you do. But you 
can't cut back, in my opinion, at the rate that the 
administration has announced it would like to and have an 
effective workforce. It just can't be done.
    So I raise this because I want to raise it every time 
because I am hoping that there will be policies that will be 
rethought and the cutbacks as, you know, we described on this 
committee, and it was on both sides of the aisle, there was 
chagrin about the cutbacks. So I just wanted to raise that with 
you, so.
    I am concerned about the imbalance between military and the 
non-military approaches to countering terrorism in sub-Saharan 
Africa. For one, expanding use of air strikes in Somalia 
obviously increases the possibility of civilian casualties, 
which runs the risk of creating more terrorists than we are 
able to eliminate in the first place. I said that in my opening 
remarks.
    In addition, while security assistance funding to sub-
Saharan Africa partner nations has doubled in the past 5 
years--though again 31 percent cut that has been proposed, 
cutting the budgets at the State Department and USAID on the 
agencies best positioned to help prevent the emergence of 
terrorism in the first place, so it's almost like no 
counterterrorism. And, you know, we worry that the redesign can 
be used as an excuse to just simply cut back. And that is what 
we are concerned about on both sides of the aisle. I don't want 
to put words in anybody's mouth but I have been here and know 
what our joint concerns are.
    So please tell me about slashing funding. I know you didn't 
personally make this decision, but slashing funding for the 
State Department and USAID obviously doesn't help us address 
the drivers of terrorism and violent extremists in the long 
term, so I would like to hear how we can fit one into the 
other?
    And what measures are we taking to improve civilian 
protection and reduce the risk of civilian casualties while 
conducting air strikes and other military operations?
    Mr. Sullivan. Well, Congressman Engel, I would agree with 
you that the root causes of counterterrorism, the situation we 
find ourselves in today, particularly on the African continent, 
the problems we see are not going to be solved by military 
action alone. In fact, I think Secretary Mattis has testified 
and made clear, as has Secretary Tillerson, that a focus on 
good governance, human rights, training for partner militaries 
are extremely important.
    Your question about how we are going to do that with our 
funding, we will do all we can with the funds that we have 
available. We advocate for the resources that we believe are 
necessary within the administration to meet our mission. We 
will do all we can to meet that mission, to develop those 
policies, support our partners and allies with the 
understanding that good governance, economic development, 
humanitarian assistance ultimately--and I will give you one 
example, Libya. We believe that solving the serious challenges 
we face in Libya is ultimately a political question. It is not 
going to be solved by military action or by counterterrorism 
alone.
    Mr. Engel. Thank you. My time is up. But I will submit some 
other questions to you. Thank you.
    Chairman Royce. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. Thank you for 
your testimony and leadership, gentlemen.
    Time is obviously very short, so I am going to focus on 
Ethiopia, South Sudan, and Nigeria. Ever since the Meles 
government, Ethiopia has asserted its role in combating 
terrorism as a cover for the ongoing systematic abuse of human 
rights. After a seriously flawed election in 2005 I met with 
President Meles in Addis Ababa and, as predicted, he just 
rolled out the terrorism card as cover, as to mitigate 
criticism, mine and many others, particularly human rights 
organizations, for the killings in the streets, the use of 
torture, the jailing.
    In response, I introduced the Ethiopia Human Rights Act. It 
was killed by lobbyists, frankly, and was not looked at 
favorably by the State Department even though the findings were 
accurate when Don Payne, my ranking member, and I introduced 
it. When the Democrats took control he took the lead on the 
bill and I was his co-sponsor. But there was also that pushback 
and people said, well, they are good on terrorism but awful on 
human rights.
    So, what are your thoughts on how, where, how often do we 
raise human rights with Ethiopia? We have a resolution pending 
now which probably may come up on the House Floor, I don't 
know. But it seems to me, you know, they can't say, oh, we are 
doing well over here while they abuse their own people and 
torture them.
    Secondly, twice in the last 15 months I have been to South 
Sudan, joined most recently by my good friend and colleague 
Karen Bass, and we raised with Salva Kiir his horrific record 
and his killings. And I am wondering, are we really pressing? I 
know the leadership, especially our Ambassador to the U.N., has 
really raised it very robustly. Kiir is a grave disappointment 
to everyone. What is being done there? Because I think that the 
potential and the reality of violence is very real.
    Finally, on Nigeria, I held a whole series of hearings, 
went there many times, kept saying why aren't we training more 
of those who could be Leahy vetted? As a matter of fact, at one 
of my hearings the Department said at least half of the 
Nigerian military would gain muster under the Leahy process but 
very few were trained. If you could give an update how well or 
poorly we are doing in terms of training Nigerian military?
    It took years to get an FTO designation for Boko Haram. I 
held hearings on it and introduced a resolution. The day we 
were marking it up the Department reverses itself and says, oh, 
we are going, we are going to go ahead and do an FTO 
designation. Days late, years late and a dollar short. But how 
well is that working as well?
    Thank you.
    Mr. Sullivan. Thank you, Congressman Smith.
    First on Ethiopia, I met with the Ethiopian foreign 
minister in June on his trip here. It was one of my first 
meetings as Deputy Secretary of State. I raised with him human 
rights concerns in Ethiopia, specific cases of detainees, the 
state of emergency that has been declared, the need for it to 
be lifted. I specifically raised it with him. I will always 
raise those issues with you, sir. I guarantee it.
    Mr. Smith. I deeply appreciate that.
    Mr. Sullivan. Thank you. When I was in Sudan we are getting 
great cooperation from the Sudanese on counterterrorism. I 
raised human rights issues, religious liberty issues with 
Sudan, gave a speech on religious liberty at the largest mosque 
in Khartoum. It was not well received. Had a very unflattering 
press statement by an imam affiliated with ISIS that made some 
threats about me. I will always raise those issues. We, the 
Department and I, are committed to it.
    On South Sudan, as you know, Ambassador Haley was there 
before I. We sort of split responsibility: I went to Khartoum, 
she went to Juba. She has raised those issues in Juba. I raised 
concerns about Sudan's influence in South Sudan with the 
government in Khartoum. Very important issue for us.
    Nigeria, I don't know if Under Secretary Trachtenberg has 
more statistics to give. We are focused on Leahy vetting for as 
many of the forces as we can at the brigade level on down. The 
threat posed by not just Boko Haram but ISIS-West Africa in 
Northeastern Nigeria is acute. And we need to support those 
forces that can be trusted that are trained by us to meet that 
threat.
    I know that time is limited, so I will turn it over to my 
colleague.
    Mr. Smith. Thank you, Mr. Sullivan.
    Mr. Trachtenberg. Thank you, Congressman Smith. The only 
thing I would add to that is to say that the Department of 
Defense is no less committed than the Department of State is to 
ensuring that human rights practices are followed. We very 
strictly adhere to the Leahy law. We hold our partner forces, 
the partner forces that we engage with, to our same standards 
and expectations.
    We include human rights training in our security assistance 
programs. And we would cease providing----
    Mr. Smith. And that includes--if you don't mind me 
interrupting--that would also include human trafficking where 
militaries so often are complicit?
    Mr. Trachtenberg. It includes various elements of human 
rights----
    Mr. Smith. Including trafficking?
    Mr. Trachtenberg [continuing]. Involving human rights, sir.
    Mr. Smith. Including trafficking?
    Mr. Trachtenberg. I believe that is correct.
    Mr. Smith. If you could get back to us on that?
    Mr. Trachtenberg. Absolutely. Oh, absolutely.
    Mr. Smith. Thank you.
    Mr. Trachtenberg. But in the event there are human rights 
abuses we will then, we will stop under the Leahy law that 
training activity.
    Mr. Smith. Thank you.
    But just in terms of that dialog, my hope is that we are 
robustly raising the trafficking issue as well included in that 
program.
    Mr. Trachtenberg. Oh, absolutely. And I will be delighted 
to get back to you with the information.
    Mr. Smith. I would appreciate it. Thank you so much.
    Chairman Royce. Greg Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back. Let me ask a quick question. I 
was just concerned or confused, and maybe you can have the 
answer. On November 28th there was an event at the Wilson 
Center where Secretary Tillerson said that President Trump's 
draconian cuts to the international affairs budget were 
``reflective of an expectation that we are going to have 
success in some of these conflicted areas.''
    This to me, I don't know, seemed extraordinarily naive. But 
can you tell me what specific conflicts do you think will be 
resolved in the coming year?
    Mr. Sullivan. I don't have a crystal ball to give you a 
precise answer, Congressman. I take the thrust of your question 
about our prospects for being able to achieve success in Syria, 
Yemen, all of those places. I don't think that that is 
something that is going to happen any time soon.
    We need to be focused on doing all we can to support our 
partners, our allies, and our military in the military fight 
but all the things that we can support on that we have 
discussed the non-military aspect.
    Mr. Meeks. And I couldn't agree with you more because that 
is why, you know, going on what Ranking Member Engel had talked 
about because if we are going to resolve some of these it is 
not going to just be militarily, we need to do it 
diplomatically also. And that is why I think on a bipartisan 
way we are disturbed when we see the draconian cuts and the 
reduction of personnel because we can't do it without you at 
the State Department. I mean, if we are going to do this thing 
we need you and we need the people there. And that is my point.
    And I know you are under constraints but we need you.
    Mr. Sullivan. Well, and to give you a very precise example, 
Congressman. In Syria, in Raqqa; in Iraq, in Mosul where the 
military in supporting our partners and allies have done the 
job of defeating ISIS militarily, it is now up to the State 
Department to come in. We are not going to take over governance 
of those areas, but we are going to provide basic stabilization 
support for water, safety, getting internally displaced persons 
back; a key element for us.
    We could very easily lose the fight on those grounds that 
the military has done such a great job in winning on the 
battlefield for us.
    Mr. Meeks. And I always salute the men and women of the 
State Department and the job that you are doing. And I hate to 
hear your honesty when you come back and talk about the lack of 
morale there. But they are serving our country in a very big 
way, in a most important way. If we are going to get through 
some of these conflicts it is going to only be with the help of 
the men and women of the State Department. So I take my hat off 
to them.
    Let me just ask another question because I want to know 
whether or not there is a connection. I am deeply disturbed 
when I hear about slave trafficking in Libya. And I am 
wondering whether there is a tie-in some way where there is a 
link to the exploitation tied to terrorists and terrorism with 
some of the slave trading that has been taking place in Libya 
today. Is there any tie-in that you see there?
    Mr. Sullivan. I believe there is. The reports of what is 
happening in those camps where migrants, refugees are being 
abused, exploited, and slave traded are shocking. It is 
happening in areas of Libya that are largely ungoverned, which 
is why we are working hard along with the U.N. for a political 
solution to the situation to get more control over those areas. 
But in those ungoverned areas where ISIS and other terrorist 
organizations are able to operate they make money by engaging 
in activities like that.
    Mr. Meeks. And you touched on this earlier, too. Because 
there was a recent survey that was conducted by the United 
Nations Development Programme that found that 71 percent of 
respondents pointed to an adverse interaction with state 
security forces as the factor of the tipping point in the 
decision to join a terrorist organization. So, and I know Mr. 
Smith talked about the Leahy vetting, and we talked about human 
rights training, are there other ways that the administration 
can or is seeking to ensure that the partner militaries that 
are accused of human rights violations pursue tangible measures 
of accountability for such actions?
    Mr. Sullivan. Two tracks, and you have highlighted both. 
One is through DoD and with the State Department's support 
vetting those organizations, military organizations that we are 
going to work with and provide funding and support to.
    But second, working with the governments to provide that 
there is accountability, there is investigations, prosecutions, 
and accountability is a key component.
    It is similar with our approach on human trafficking, 
trafficking in persons. One of the pillars--there are several 
pillars--one is breaking up the networks. But the second is 
working with governments to make sure that those who are 
engaged are investigated, prosecuted, held accountable, and 
punished.
    Mr. Meeks. Thank you. My time has expired.
    Chairman Royce. We go to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you very much. And thank you for 
your testimony today. And I know Chairman Royce has had a very 
keen interest in Africa since the day he arrived in the United 
States Congress, along with broadcasting. So we are actually 
paying more attention to Africa today because of his 
leadership.
    I would admit my limited knowledge of Africa. And but let 
me just note after, my response to what you are saying is that 
I am wondering how all of this fits in with an overall strategy 
of how you deal with the world. I would hope that the United 
States, I don't think we will ever be able to afford what 
appears to be the development of an idea that we have a Pax 
Americana, that we can go all over the world and wherever there 
is problems we are going to come in and try to solve those 
problems. We are going to go broke if we try to do that.
    I mean just there was a Pax Britannica, and that was able 
to last a short period of time. And a Pax Americana will last a 
short period of time if we did that.
    We, for example, can we by being the grand decision makers 
end up making, yes, some good decisions and trying to help? We 
are good-hearted people trying to do the best. But, for 
example, Mr. Sullivan, do believe now that you just came back 
from Libya, do believe that it was right for us to break that 
compromise that had been reached with Qaddafi, for example. 
Would it have been--are we worse off today or better off today 
because America came in and decided we are going to get rid of 
Qaddafi and sided with the rebels who they wouldn't have 
succeeded without our help? Is Libya better today or is the 
world better because we got rid of Qaddafi?
    Mr. Sullivan. Well, in my remarks, comments to Congressman 
Meeks I spoke about the ungoverned areas in Libya. Libya is 
certainly today a place that has a significant focus of our 
counterterrorism for that very reason. What we don't want is a 
place where, as there was in Sudan in the 1990s, or Afghanistan 
in the late '90s, early 2000s, places where terrorist 
organizations can plant root, flourish, plan attacks against 
the United States. That is what we want to eliminate, in 
addition to supporting governments in the region.
    Mr. Rohrabacher. And when we had Qaddafi there, you know, I 
think the greatest mistakes, there were two great mistakes made 
by the United States in my lifetime. One was to send combat 
troops into Vietnam, and the other is to send combat troops to 
get rid of Saddam Hussein. And Saddam Hussein was just 
benevolence; we had to bestow democracy on those people. And it 
has unleashed all of this chaos.
    I don't believe that we can have a Pax Americana. We have 
to be really a little bit more thoughtful. For example, 
Congressman Smith just talked about Ethiopia where I have 
constituents who were ripped off by the Ethiopian Government, 
and the corruption there and the oppression now, even though we 
have been friendly to the Ethiopian Government. But there is a 
player in all of that that I see and I would like to ask you 
about, and that is money.
    These people who run these dictatorships, and also these 
groups that are terrorist groups, but mainly the authoritarian 
leaders in Africa, do they not have bank accounts someplace in 
the world? And can we prevent them--our bankers, we have got 
global bankers who are basically partners in the rip-off of the 
world's poorest people. And we just never seem to focus on that 
part of the criminal element, the bankers. Could you?
    Mr. Sullivan. That is an extremely important point and 
relevant to my trip to Nigeria where the Nigerian Government is 
focused on recovering billions that has been looted from that 
country.
    We work with the Justice Department. When I was there 2 
weeks ago with our Justice Department, our Embassy, and the 
Nigerian Government trying to get back to the Nigerian 
Government that money that was in the United States that we 
could get control of. It is a small fraction.
    Mr. Rohrabacher. I don't think I am just talking about 
United States banks. We have an international banking system. 
And quite frankly, the gang that runs Ethiopia----
    Mr. Sullivan. Right.
    Mr. Rohrabacher [continuing]. Have bank accounts somewhere 
to the tune of billions, probably hundreds of millions of 
dollars. But that is true throughout Africa.
    Mr. Sullivan. Absolutely.
    Mr. Rohrabacher. I think that if we are going to help, 
rather than just trying to be holier than thou about human 
rights violations, that this is our stance, let us agree and 
try to help them develop. We have got to prevent them from 
being ripped off and having the wealth sucked out by their 
corrupt leaders in partnership with banks.
    Mr. Sullivan. You are absolutely right. And it is banks 
outside the United States----
    Mr. Rohrabacher. Right. That is right.
    Mr. Sullivan [continuing]. That are principally the focus.
    We try to establish trust with the government by saying 
that money which we can immediately access here in the United 
States we are going to get back to you, but also work with them 
in other countries for those other banks elsewhere where we 
don't have as much--we don't have jurisdiction, frankly, but 
working to get that money back.
    It is a huge problem and a priority for those governments 
that are focused on good government.
    Mr. Sullivan. We will be happy to work with you. Thank you 
very much.
    Mr. Sullivan. Thank you.
    Mr. Rohrabacher. Thank you.
    Chairman Royce. Thank you. We go to Mr. Albio Sires of New 
Jersey.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Sullivan, I just want to first thank you for your 
service to this country. You have served in many capacities and 
now you have got a real difficult job, and I thank you for your 
service.
    But I do not agree with you that the State Department 
morale is improving. I still see qualified people leaving. I 
still see the President still insisting on a 30 percent cut. 
The Secretary seems to be a little distant from everything. So 
I don't know if I really agree with you that things are really 
improving there.
    You know, until we stop losing all these good people that 
have worked there so long and have given so much to the State 
Department, you know, it is going to be a job for you.
    So, go ahead.
    Mr. Sullivan. I was going to say that I don't think I said 
that morale was improving, if I did I misspoke. I testified 
here----
    Mr. Sires. I thought that is what you said.
    Mr. Sullivan. No, I said it hasn't improved.
    Mr. Sires. It hasn't improved.
    Mr. Sullivan. It has not.
    Mr. Sires. It must be my English then. I'm still learning 
it.
    Mr. Sullivan. It's my Boston accent. I'm sorry.
    Mr. Sires. But, Mr. Sullivan, one of the things that I 
always pride myself on is freedom of speech. You know, I have 
been an advocate here for a long time, since I have been here. 
And I am disheartened by the President's unrelenting effort, 
the State Department's efforts to defend freedom of speech 
around the world. What is the rationale behind the 
administration's putting money toward free press programs
    in places like Hungary, but yet when it comes to Cuba we 
cut
    it, when it comes to Venezuela we cut it? Who determines 
where this money goes? How is that, you know, for promoting 
free press in these countries?
    Mr. Sullivan. Well, it is certainly the case that Secretary 
Tillerson and I in the Department are strong advocates for 
freedom of the press. I raised this issue on my travels in 
Africa 2 weeks ago.
    With respect to specific allocations, I would have to get 
back to you on Cuba and Venezuela. It may have to do with 
partners that we were supporting there.
    I am aware of the program in Hungary to which you 
reference. But I would be happy to get back to you on more 
specific information with respect to Cuba and Venezuela.
    Mr. Sires. That would be great.
    And how concerned are you that the Libyan situation is 
going to spill over into Tunisia and Morocco?
    Mr. Sullivan. Very concerned, as are the Tunisians in 
particular. We spent a lot of time focused on border security 
for Tunisia. We work in partnership with DoD and AFRICOM on 
border security, and not just the land border but the maritime 
border as well. Very important. Tunisians are concerned about 
it. We are devoting a lot of resources to it.
    Mr. Sires. And Morocco?
    Mr. Sires. Morocco as well. Same situation.
    Libya is, as I said in my opening remarks, both a magnet 
for foreign terrorist fighters and a source. So we are doing 
all we can. And I would defer to Under Secretary Trachtenberg 
if he has other thoughts to offer. But border security for 
those North African countries on either side of Libya is 
extremely important.
    Mr. Trachtenberg. I would agree with that, Congressman, 
absolutely.
    Mr. Sires. Do you see the hand of Iran in all these 
efforts?
    Mr. Trachtenberg. I think Iran is definitely a challenge, 
certainly regionally. And, yes, there are a number of malign 
activities that Iran is engaged in that we are focused on that 
I know the State Department is also focused on. And I do agree, 
we need sort of a whole of government approach for dealing with 
some of these issues. But definitely I would agree with you on 
that.
    Mr. Sires. And I just read an article on Politico regarding 
Hezbollah, their increasing efforts in the Western Hemisphere. 
And I don't know if you saw the article but it would be great 
if you could look at that because it really talks about how 
they have increased their presence in Central America and South 
America and in Venezuela. So I was just wondering if you can 
comment on that?
    Mr. Sullivan. Yes, I can in fact. The administration is 
working on specifically a Hezbollah strategy. And there are 
various aspects to it. There's Hezbollah in Lebanon which has 
become in a sense a local governing entity in southern Lebanon 
in addition to a terrorist organization that are influencing 
events in Syria. But they are also projecting their malign 
influence elsewhere including, unfortunately, in this 
hemisphere. You are absolutely right. And this administration 
is aware of it and focused on it.
    Mr. Sires. And I would like to apologize for not hearing 
correctly what you said before at the beginning.
    Thank you.
    Mr. McCaul. [Presiding.] The Chair recognizes myself for 
questions.
    I chair the Homeland Security Committee and so I have been 
a student of counterterrorism for quite some time. Was a 
Federal prosecutor as well. I know Osama bin Laden was in 
Khartoum and Afghanistan. I saw the rise of ISIS and the 
Caliphate during the tenure of my chairmanship, unfortunately. 
We have crushed the Caliphate, and we have defeated ISIS in 
Iraq and Syria.
    But now I am seeing a new phenomenon. I went to Egypt and 
the Sinai and we saw the explosion in the mosque, the downing 
of the Russian airliner. I was in Tunisia, met the Libyan team. 
It is in chaos.
    Boko Haram is taking over in parts of Africa, AQIM and 
other terrorist organizations.
    What I am worried about is that as we squeeze the balloon 
they are going to pop up somewhere else. And Africa seems to be 
the safe haven. They seek chaos. They seek ungoverned 
territories and safe havens. And so I see if we are trying to 
look in the future it is actually happening now that Africa is 
going to be the spot. This is going to be the hotspot.
    There is a Trans-Sahara Counterterrorism Partnership that 
includes 11 African countries. I know State has worked very 
diligently on this. And, Mr. Secretary, I was just hopeful you 
could give me maybe an update on how that partnership is 
working.
    Mr. Sullivan. Well, the phenomenon you described is quite 
accurate, Congressman. And we are--and I will defer to Under 
Secretary Trachtenberg on this--but we are very focused on 
where those terrorist fighters that are leaving the Caliphate, 
what is left of it--and there isn't much--in Syria and Iraq, 
where they are going. Certainly Africa, parts of Africa, Libya, 
Northeastern Nigeria, elsewhere seems to be a landing place.
    But we are also seeing that in other areas, in South Asia 
and in the Pacific as well, in the Philippines.
    Mr. McCaul. Right.
    Mr. Sullivan. So it is a priority for us to not win the 
fight against the Caliphate in Syria and Iraq but lose track of 
where all those, where all of those foreign fighters are going.
    Unfortunately, Libya has been an attractive place for them 
because of the ungoverned areas that I described earlier, and 
that you mentioned and know so well.
    But I defer to my colleague Under Secretary Trachtenberg.
    Mr. Trachtenberg. Congressman, I think you put your finger 
on the crux of the problem here when you talked about victories 
in certain areas but yet leading to problems in others.
    I tend to look at this, the problem of countering terrorism 
and extremist organizations, as something like a balloon, if I 
could use that analogy. If you squeeze the balloon in a certain 
place you will narrow it and take the air out of that place, 
but it will also balloon in other area, will expand in other 
areas. I think to a certain degree that is what we are seeing 
by the flow of foreign terrorist fighters from one area to 
another.
    I think our job is working by, with, and through our 
partners, and working with our colleagues at the State 
Department and elsewhere is to deflate the balloon in order to 
solve the problem of terrorists and extremist groups moving 
simply from one location to some other ungoverned space where 
they feel they have freedom of, more freedom of action.
    Mr. McCaul. Can you comment on the role of NGOs? I was at 
the Munich Security Conference. I met with Bill Gates, the 
Gates Foundation; they do some great work in Africa. Bono and 
the ONE Campaign. Is that helpful, Secretary?
    Mr. Sullivan. NGOs are not just helpful but essential. We 
partner with them everywhere, particularly for humanitarian 
assistance. PEPFAR relies on partnering with NGOs. Really key, 
key for us.
    Mr. McCaul. That may be key to stability. I think what we 
need is stability.
    Mr. Sullivan. Stability.
    Mr. McCaul. And it is very fragile and unstable.
    Mr. Sullivan. Good governance, health, economic 
development, humanitarian assistance. Basic stability issues 
that we need in places like Raqqa or in Mosul for just water, 
sanitation, demining, medical services, all key things that 
need to be restored in places that have just been decimated.
    Mr. Trachtenberg. I agree with Secretary Sullivan on that, 
sir. It is true again, again what DoD is doing is basically 
attempting to work with our partners in the region to establish 
the security conditions that will allow these other priorities 
to be put into place in order to deal with some of the 
underlying reasons for the rise of terrorists and extremist 
activities. So absolutely concur.
    Mr. McCaul. Thank you. I agree and thank you for that 
testimony.
    The Chair now recognizes the gentlelady from California Ms. 
Bass.
    Ms. Bass. And let me just say I appreciate your questions 
about NGOs. I am hoping that somewhere down the line we can 
look at how we do foreign assistance because I think in some 
instances some of the countries could do for themselves, and 
maybe we need to focus on infrastructure like electricity and 
roads and things like that. So I look forward in the future to 
working with you on that.
    A couple of quick questions. Mr. Sullivan, there were a few 
times that you kept referring to 51 African countries. Why? Is 
that because we are involved in 51 as opposed to 54? But why?
    Mr. Sullivan. Fifty-four posts where we have, have 
Ambassadors.
    Ms. Bass. Oh, I see. There is three countries where we 
don't?
    Mr. Sullivan. Right.
    Ms. Bass. I see. What is that? Eritrea?
    Mr. Sullivan. Yes, Eritrea----
    Ms. Bass. That is okay.
    Mr. Sullivan. Sudan we have a Charge because we can't deal 
with Bashir, the President. And there is a, there is a third.
    Ms. Bass. Well----
    Mr. Sullivan. So there are three where we don't. But I will 
get, get those for you.
    Ms. Bass. Okay. And since you mentioned Sudan, since we 
are, you know, in the process of changing our policies there, 
what is the trajectory? Do we see having more than a Charge or?
    Mr. Sullivan. I don't see that. That is not a near-term 
development that I foresee.
    Ms. Bass. You don't see that changing?
    Mr. Sullivan. My hope is that it will. I am not counting on 
that. My visit there was to discuss all the work that we have 
to do with Sudan going forward.
    We took one step,----
    Ms. Bass. Right.
    Mr. Sullivan [continuing]. As we discussed in October. 
There are a lot more things that need to happen before we have 
full, normal relations with Sudan.
    Ms. Bass. And maybe in another setting I could hear some 
more details about that. I think that would be helpful.
    Mr. Sullivan. As we discussed before my trip,----
    Ms. Bass. Yes.
    Mr. Sullivan [continuing]. I would be delighted to come 
talk with you and give you a little more detail.
    Ms. Bass. All right. And I, so I am wondering if you can--I 
wasn't here when my colleague asked questions about Libya, but 
tomorrow representatives of the Congressional Black Caucus are 
meeting with the Ambassador from Libya, deeply concerned about 
the whole situation that CNN exposed regarding the slave trade. 
And in general, I mean once Qaddafi was overthrown the sub-
Saharan Africans that were in Libya were mistreated from the 
beginning because they were viewed as pro-Qaddafi forces.
    And so I was just wondering if there is anything you might 
offer us in preparation for that meeting with the Ambassador 
tomorrow, what is your view on this, specifically around the 
slave trade that has been exposed?
    Mr. Sullivan. Meeting with our Ambassador, with Ambassador 
Bodde?
    Ms. Bass. No. No, no, no, no, no, meeting with the Libyan.
    Mr. Sullivan. The Libyan. Oh, I am sorry, the Libyan 
Ambassador.
    Ms. Bass. With the Libyan Ambassador tomorrow.
    Mr. Sullivan. Oh. So, two aspects of it, two really. One is 
the camps themselves in Libya which are difficult for us to get 
to because they are in, as I have discussed, in ungoverned 
areas for the most part where neither the GMA, the government 
in Tripoli, Prime Minister Sarraj, or the Haftar group in 
Eastern Libya really have access to. So that presents a real 
problem for us in trying to directly address the problem.
    The larger issue for us, though, is the countries that 
those migrants, those refugees came from and addressing the 
situation in those countries, why they left, why they left 
Nigeria----
    Ms. Bass. Right. Right.
    Mr. Sullivan [continuing]. In the first place.
    Ms. Bass. And, you know, on another note I want to ask you 
one more question before my time runs out. But maybe there is 
something that we can do with the E.U., especially with this 
whole policy of sending people back and not knowing where they 
are going back to.
    I wanted to ask you a question about Chad. Chad's decision 
in October to withdraw troops from the Multinational Task 
Force, some analysts believe that that is one of the things 
that led to the instability along the border and the attack on 
our Special Operation Forces. And I wonder if Mr. Trachtenberg 
can make a comment in that?
    Mr. Trachtenberg. Thank you, Congresswoman. We, from a DoD 
perspective, we have not seen any impact, operational impact in 
terms of our ability to work with the Chadian forces as part of 
our partnership, counterterrorism partnership activities.
    Ms. Bass. Did we figure out why they were included in the 
Muslim ban, considering that they were our allies?
    Mr. Trachtenberg. I, I do not have an answer. Do not have 
an answer.
    Ms. Bass. I mean that is what led to them pulling out of 
the Multinational Task Force isn't it?
    Mr. Trachtenberg. All I can tell you, Congresswoman, is 
that at least operationally we see no impact in terms of our 
ability to work with them as partners.
    Ms. Bass. So you don't think that had anything to do with 
the attack on our Special Forces?
    Mr. Trachtenberg. I cannot--that is a question I would have 
to take for the record. I can't, I can't answer that.
    Ms. Bass. One last question. Do you know how many troops we 
have on the continent? I mean, after that attack that really 
raised a lot of questions because we thought it was a few 
hundred. How many U.S. troops are there on the continent of 
Africa?
    Mr. Trachtenberg. I think the issue of the troops that we 
have, the actual numbers and their locations is an issue that I 
would prefer not to address in an open session.
    Ms. Bass. Okay. Thank you. I yield back my time.
    Mr. Curtis [presiding]. Thank you.
    We now go to Representative Ted Poe, chairman of the 
Subcommittee on Terrorism, Nonproliferation, and Trade.
    Mr. Poe. Thank you, Mr. Chairman. And congratulations on 
being chair of this committee in such a few months.
    Thank you, gentlemen, for being here.
    Mr. Curtis. Thank you.
    Mr. Poe. I am not going to let you respond.
    I do want to comment on something the gentlelady Ms. Bass 
made a comment earlier. Just for the record, the committee has 
passed, and the House has passed, and it is the law of the land 
that there will be an audit of foreign aid. And we will have 
that, supposedly, audit in January to see what all those NGOs 
are doing all over the country, all over the world, whether 
they are working or not working. I think it is long overdue. 
So, I look forward, as you do, to that information.
    And I also want to follow up on the issue of Libya 
specifically. The United States in my opinion recklessly 
intervened in Libya in 2011. We toppled the regime. We all 
thought we were doing such a great thing. But Libya turned into 
a failed state. Another failure in American foreign policy to 
topple a regime and then let it go into disarray. And because 
of that, now we have Libya with all of its different tribes, 
and groups, and governments all in Libya trying to control the 
Government of Libya. And a lot of these groups, in my opinion, 
are terrorist groups.
    And now we know that Libya is a center point for people who 
want to get out of their situation in Africa being fooled to 
think that they can get to Libya and then go across the 
Mediterranean, primarily to Italy. And people are being lied to 
that they will be smuggled, and get a job, and all of those 
things that we have heard about for years. And they are lied 
to, primarily women and children, and all of a sudden they are 
in the slave trade.
    They are being kidnaped by modern day slave masters. They 
are turned into slaves. They are sold on the marketplace of 
slavery and human trafficking, some for $100. And bad things 
only happen to them.
    Now it is not just the western part of Africa where the 
smuggling route takes place, it is taking place from many 
different areas of Africa, folks just trying to have a better 
life and then they are in the slave trade.
    I wouldn't say that the United States is at fault of this, 
but we destroyed the regime. And it is chaos in Libya. I have a 
couple of questions.
    Specifically what terrorist groups are involved in the 
slave trade?
    Mr. Sullivan. I would have to get back to you for a 
specific answer. I can speculate.
    Mr. Poe. All right.
    Mr. Sullivan. I will have to get back to you with a--I want 
to give you a precise answer. If I could take that for the 
record, because I don't want to speculate.
    I don't know if the Under Secretary may have more relevant 
information.
    Mr. Trachtenberg. No. I would also, I would also want to 
take that for the record.
    Mr. Poe. Okay. Well, we will hold you both accountable for 
that because we want to know who those, who those bad outlaws 
are and then develop a continuous policy of going after them.
    What is the United States' foreign policy regarding Libya 
today? After all these years since 2011 tell us what our policy 
is? What is our goals? What are we trying to do? Who do we 
support in Libya?
    Mr. Sullivan. We deal with Prime Minister Sarraj who is the 
head of the GMA, his government in Tripoli. There is a Libyan 
political agreement in place that has been negotiated by, as 
you have mentioned, all the relevant tribes and entities.
    There is a process in place, led by a U.N. representative, 
a representative of the Secretary-General. The United States 
supports that political process to bring all those disparate 
elements together, to come up with a political solution so that 
we can have elections, which are scheduled next year, and have 
a legitimate government in Libya that we can deal with.
    Mr. Poe. Okay. Mr. Secretary, just to reclaim my time since 
I am just almost out of time. Now that we know about the slave 
trade and that Libya is a hub of the slave trade, what are we 
doing about that specific issue regarding Africans who are 
smuggled through Libya into Europe in the slave trade?
    Mr. Sullivan. Two things. We have got a preexisting 
program, Trafficking in Persons. Libya has become a key focus 
of that. Trafficking in persons is a global problem. This is an 
acute problem we have to address in Libya. That is first.
    Second, we need to address the political and economic 
situations and support the governments in countries like 
Nigeria where those people are fleeing, leaving themselves open 
to be abused in camps in Libya.
    Mr. Poe. I will look forward to that list of terrorist 
groups. Thank you, gentlemen.
    I yield back.
    Mr. Curtis. Thank you, Mr. Chairman. And thank you for that 
shout out as well.
    The Chair recognizes David Cicilline from Rhode Island.
    Mr. Cicilline. Thank you. Thank you to our witnesses for 
being here.
    Mr. Sullivan, I want to begin with you. The President has 
declared his support for a tax bill that will add $1 trillion 
to the national debt, yet he, Secretary Tillerson, you, and 
others in the administration continue to use the deficit as an 
excuse for the deep cuts that have been proposed to the State 
Department and foreign assistance. So I am just wondering 
whether in light of this development whether your position has 
changed or whether you think it is still necessary or desirable 
to support a 30 percent cut in USAID and the State Department?
    Mr. Sullivan. Well, as Secretary Tillerson has testified, 
we believe we can perform the mission of the State Department 
with the budget----
    Mr. Cicilline. So it is still the position----
    Mr. Sullivan. Yes. Yes.
    Mr. Cicilline. Your position hasn't changed though. We are 
going to add $1 trillion to the deficit for this tax bill but 
that we still need to make these devastating cuts to the State 
Department and USAID because of the deficit? Okay, your answer 
is yes?
    Mr. Sullivan. My--I didn't take the position on the tax 
bill. I----
    Mr. Cicilline. No, no, but you take the position that the 
deficit----
    Mr. Sullivan. On the budget.
    Mr. Cicilline [continuing]. So the reason that we are 
making a 30 percent cut in the State Department and USAID that 
you support as Assistant Secretary?
    Mr. Sullivan. I support that budget. Yes, I do.
    Mr. Cicilline. Okay. Now, and you don't think there is any 
concern that our allies and partners around the world might not 
believe us next time we say we want to disengage from a program 
because we don't have resources? You don't think--do you think 
it has any impact on the perception of the world about U.S. 
leadership and global engagement?
    Mr. Sullivan. Well, the Department, the President has made 
the case that we believe that it is important for countries 
that haven't stepped up for these programs that they step up 
their commitment.
    Mr. Cicilline. So I take it the answer is no.
    We are here to talk about counterterror operations in 
Africa. And you mentioned that 90 percent of our Ambassadors 
are in place now, which is terrific. But I think you will agree 
that counterterrorism operations in Africa and the Middle East 
are inextricably linked. And my first question is do you think 
you can achieve, or we can achieve our goals for the region 
without an Ambassador in Saudi Arabia, Turkey, Jordan, Qatar, 
Yemen without an Assistant Secretary for Near Eastern Affairs?
    Mr. Sullivan. I am sorry, can we keep our policies----
    Mr. Cicilline. Can we achieve our objectives without these 
positions even being in place, doing the work that is required 
of each of those Ambassadors and each of those Secretaries?
    Mr. Sullivan. Each of those positions is filled and we are 
doing the work. We could do it better if those positions were 
filled with Senate-confirmed individuals.
    Mr. Cicilline. But they are not filled with Ambassadors, 
they are filled with acting individuals; correct?
    Mr. Sullivan. Charges.
    Mr. Cicilline. So, we have 50 percent of the positions in 
the State Department and USAID where an individual hasn't even 
been nominated for the position; correct?
    Mr. Sullivan. I will take that number, yes.
    Mr. Cicilline. Okay.
    Mr. Sullivan. I believe that is roughly accurate, yes.
    Mr. Cicilline. 50 percent. That includes the, all of the 
Ambassadors I just mentioned and a number of additional 
positions. Fifty percent. You know, we keep hearing, oh, it is 
because the Senate is slowing down. The administration hasn't 
submitted half the people for these positions that are 
necessary. What is the delay?
    Mr. Sullivan. Well, the delay in part is----
    Mr. Cicilline. And how are we expected to do, advance the 
work of the United States, and the national security interests, 
and the diplomatic work? We can't engage in robust diplomacy 
without diplomats. Do you agree?
    Mr. Sullivan. I would agree with that. We have----
    Mr. Cicilline. Okay. So I hope you will do everything you 
can to encourage the President to actually appoint people to 
these very important positions that the rest of the world is 
wondering what we are doing and why we are not engaged. I hope 
you will take that message back.
    Next I would like to ask you about a very serious issue 
with respect to child soldiers. There is serious concern in the 
Congress over reports that Secretary Tillerson acted in 
contravention of the Child Soldiers Prevention Act by not 
listing Afghanistan, Iraq, and Burma among those countries who 
use child soldiers. We know that the State Department's legal 
advisor, every relevant office and bureau, and even our 
Embassies abroad believe that these three countries were 
required by statute to be listed but they were not.
    As you know, the Child Soldiers Prevention Act requires the 
State Department to list any country, even if it is believed 
the countries were making progress, that used child soldiers 
during the year, without exception. Can you tell me why 
Secretary Tillerson chose to ignore the advice of so many State 
Department experts and the framework of the Child Soldiers 
Prevention Act and not list these three countries?
    Mr. Sullivan. Based on the advice he got, he applied his 
judgment applying the statute to the facts that were presented 
to him, and made that decision----
    Mr. Cicilline. So the advice he got was to the contrary, it 
was to list the three countries. Do you know why he didn't?
    Mr. Sullivan. I, he, as I say, he applied his judgment, 
applied the law to the facts.
    Mr. Cicilline. What does that mean?
    Mr. Sullivan. That means that he applied his judgment based 
on the recommendation he got, the materials that were presented 
to him. It was his judgment to make.
    Mr. Cicilline. Okay. Next, Mr. Sullivan, could you tell me, 
I recently visited the Central African Republic and saw the 
important work of the U.N. peacekeepers there. And I would be 
interested to know what we can do to better support the U.N. 
peacekeeping mission. I think in that particular place we are 
at a very sort of tipping point, and that mission we want to 
make sure is successful. And what can we be doing, what can the 
United States be doing to better support U.N. peacekeepers to 
be sure that they have both the training and the equipment that 
they need to be successful?
    Mr. Sullivan. Well, CAR in particular has been an important 
topic for Ambassador Haley at the U.N. in working with the 
Secretary-General to improve both the efficiency and 
effectiveness of peacekeeping operations generally, but in CAR 
in particular. It is a very important mission for us.
    Mr. Cicilline. And my very last question, Mr. Sullivan.
    A recent survey conducted by the U.N. Development Programme 
found that 71 percent of respondents pointed to an adverse 
interaction with state security forces as the factor that was 
the tipping point in their decision to join terrorist 
organizations. Aside from Leahy vetting and human rights 
training, in what ways is the administration seeking to ensure 
that partner militaries accused of human rights violations 
pursue tangible measures of accountability for such actions?
    Mr. Sullivan. As I testified earlier, accountability, not 
just vetting of the organizations, the particular military 
units or police units, but accountability, investigation, 
prosecution, and accountability by the government of those 
units is a key part of our program to ensure we are not 
enabling organizations that violate human rights. And not only 
just completely counter to our mission, which is to eliminate 
the terrorist threat rather than create, as the statistics you 
cite, having organizations that abuse people creates more 
terrorists rather than reducing the number of terrorists.
    Mr. Cicilline. I thank you very much. And I yield back, Mr. 
Chairman.
    Chairman Royce [presiding]. Thank you. We go to Adam 
Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And I appreciate both of you being here today. I know it is 
probably the joy of your week to look forward to coming and 
testifying in front of Congress. But we love having you here, 
and thanks for your service to your country.
    A couple of quick points and then I will get to my 
questions. The issue of Libya was brought up earlier by my good 
friend. And I do want to make the point because I think it is 
lost a lot. People say, well, look at Libya, intervention in 
Libya failed. I think it was the post-Libya intervention that 
failed. I think when you take out leadership and then you 
basically walk away from a country there is no doubt you are 
going to have issues with governance.
    But I do like to point out the fact that compare Libya to 
Syria. In Libya, as difficult as it is right now, and as 
challenging as it is, there is not \1/2\ million dead Libyans 
right now. And there is not a generation that is being churned 
into refugee camps to the great extent that Syria is.
    So I think when you compare the idea of intervention and 
you look at Libya and you look at Syria, I would much rather 
have Syria look like Libya than Libya look like Syria. I think 
it is an important point. It doesn't mean we didn't fail at 
follow-up. I think follow-up we did fail. We basically walked 
away and said, here, fix it.
    The other point I think, and I know it is kind of a 
aggressive way to say it, but I think it is important. I think 
this fight on terror, this war on terror is basically the 
equivalent of a low grade World War III. And we are fighting an 
enemy all over the world. We have been--I am a veteran of the 
wars and so that, you know, I have been in the military now 13 
or 14 years, and I expect that probably the next generation to 
follow me is still going to have to fight this war to some 
extent.
    So, Mr. Sullivan, my question on that is when we look at 
Africa and we look at the Iron Curtain of poverty, which I call 
it, and you look at this kind of lost opportunity, today there 
is 15 countries in sub-Saharan Africa where half of the 
population is under the age of 18. And combined with that 
tremendous youth bulge is the fact that about 60 percent of 
Africa is unemployed or under the age of 25. And that 
demographic represents the prime recruiting pool for terrorist 
groups like Boko Haram, Al-Shabaab.
    I was in Kenya and saw a USAID project where we built a 
milk co-op and, frankly, gave villages opportunity and hope. 
And they were extremely excited to meet me. They had never seen 
Adam Kinzinger, but they knew I was a guy from the United 
States Congress and they knew that we had changed their lives. 
And it is in villages like that where you will never, ever be 
able to recruit an enemy against the United States.
    And so, Mr. Sullivan, that is where I consider your job 
especially important is conflict mitigation, in denying 
terrorists recruits around Africa. Given that this 
administration has placed a huge priority in fighting 
terrorism, how is the State Department working to address 
underlying causes of radicalization, including lack of 
political opportunity, political marginalization, economic 
opportunity?
    Mr. Sullivan. Well, it is extremely important for all the 
reasons you say. And one thing that I would point out and 
emphasize a point you made which is for our support--and I am 
focused, I am thinking now of particularly in programs in Iraq 
now--for large areas of Iraq that have been recovered from, 
from ISIS we found that the most effective programs are the 
small, are really small scale.
    Large-scale projects we have wasted huge amounts of money 
in Iraq, Afghanistan, elsewhere. Smaller scale projects on the 
village level. And we have got a number of projects, a large 
number because they are small but they total almost $150 
million, for areas of Iraq that we need to contribute to 
stability so that internally displaced persons can go back. But 
the focus has to be on the local level.
    These large macro projects, in my opinion, where we invest, 
have invested billions it leads to corruption, graft, all of 
that. Focusing on the local level where there is a real impact 
on individual lives, that is where we need to be.
    Mr. Kinzinger. That is why I hope maybe the State 
Department can do a better job of, in essence, bragging about 
those achievements because, look, I am fighting people in my 
own party, some that want to zero out the entire State 
Department; right? And I think on the other side of the aisle, 
my friends over there sometimes think that any budget cut is 
going to lead to chaos all around the globe.
    What we want to do is have a State Department that is 
efficient and effective. And so I think those small-scale 
projects, conflict mitigation, a fight in a village in Iraq, 
for instance, that never happened because we brought two sides 
together and they learned to kind of live together is the stuff 
that we need to talk and brag about.
    Because I love DoD. I am a member of DoD as a reservist. I 
just want to use them less. And because when you have to use 
DoD it gets really expensive and people lose their lives. And, 
frankly, me and my fellow pilots are kind of tired of having to 
deploy all the time, but they are really good at what they do.
    So, I want to thank you both again for being here. And I 
would just encourage you to always think, in the State 
Department to always think in terms of, and frankly anybody 
listening, there is a lot of conflicts that are mitigated that 
we never hear about. And I think it is extremely important that 
you guys get that message out so the folks here sitting behind 
can support it.
    So thank you, and I yield back.
    Chairman Royce. We go to Lois Frankel of Florida.
    Ms. Frankel. Thank you. And thank you to the witnesses for 
being here.
    My concerns that I want to talk to you about today is the 
impact on the women of the world--and I know specifically we 
are talking about Africa--with some of the current action or 
inaction of the State Department. And just to pick off, pick up 
where Mr. Kinzinger, some of his comments which was that the 
population of Africa over 1 billion, 60 percent under the age 
of 25, 40 percent living in poverty, and obviously the poor 
governance, corruption, economic exclusion. And I want to pick 
up on the weak health systems. All which lead to terrorism and 
the recruitment of especially young men to be terrorists.
    And my concern is that there seems to be an obsession on 
the Republican side and our President with abortion. And 
because of that obsession and the failure to recognize that the 
Federal Government does not fund abortion that we have taken 
the gag rule too far, we have taken, we have defunded programs 
at the U.N. which are cutting off health, reproductive, access 
to contraception, access to AIDS prevention to the women of 
these countries, which has large impact on what goes on. I am 
sure you would agree with that.
    So, my question to you is what are you doing about that? 
You, I think you were here one time, or Secretary Tillerson was 
here, he said there was going to be a review of the global gag 
rule to include assessments of any harm caused by the politics 
to women and the girls that receive U.S. global health 
assistance.
    I think I asked you about, I'm sorry, Mr. Sullivan, I asked 
you about the downgrading of the Office of Global Women's 
Issues. We still don't have an Ambassador and I still am 
concerned about that. So I would like to have your comment on 
those issues.
    Mr. Sullivan. I will have to get back to you on the effect 
of the gag rule. I will take that for the record and I will get 
back to you.
    We have--the process for selecting the Ambassador, we 
identify the person but then they have to go through vetting. 
It takes a while. That position is going to be filled. You have 
my word on that.
    Ms. Frankel. Okay, well, I appreciate that. In the 
meantime, what about downgrading the office? You serve the 
office--you report directly to the Secretary; is that correct?
    Mr. Sullivan. Yes.
    Ms. Frankel. And now that position is going to be 
downgraded?
    Mr. Sullivan. Well, there were almost 70 offices, all of 
which reported directly to the Secretary. So we have tried to 
rationalize the system so that each of those offices is placed 
in a bureau that would provide support to that office because 
the Secretary, the Office of the Secretary is small, it is one 
person. So we don't characterize it as a downgrade.
    Ms. Frankel. Well, my concern will be the ability of that 
bureau that you are talking about, the issues that involve 
women are so diverse you can't, it is very hard to just put 
them in one little pocket. And you are dealing with economic 
issues. You are dealing with gender equality. You are dealing, 
obviously, with health issues, with child marriage, with sex 
trafficking, labor trafficking, all those issues that go across 
a lot of different components of the State Department. I want 
to be assured that this bureau is going to be able to access 
all of those areas.
    Mr. Sullivan. Certainly. And on my trip to Africa, in 
Nigeria I saw all those issues. I went to a hospital, to a 
clinic, a PEPFAR clinic that was HIV positive women with babies 
born to them and because of PEPFAR their babies are not HIV 
positive.
    Economic empowerment, Secretary Tillerson has discussed 
that. The value of a dollar invested in a woman yields so much 
more that it is, it is really money well spent.
    All those issues you raised are extremely important, and 
particularly for our subject here which is Africa and 
counterterrorism in Africa.
    Ms. Frankel. All right. Well, just to let you know, we are 
going to be watching that and hope for some good progress.
    I yield back.
    Chairman Royce. Okay. Mr. John Curtis of Utah.
    Mr. Curtis. Thank you, Mr. Chairman.
    There has been a theme today expressed by a lot of my 
colleagues about human rights. And I don't want to burden us 
with further questions other than to express my own personal 
concern and interest in this. And appreciate your efforts along 
these lines.
    I would like to ask Dr. Trachtenberg quickly, in your 
opening remarks you said African solutions to African problems. 
And I found myself wishing you had just a little bit more time 
to expand on that. Would you take just a minute and tell us 
what you meant by that?
    Mr. Trachtenberg. Sure, Congressman. I think clearly it is 
not our role, certainly not the role of the Department of 
Defense to determine the outcomes for other countries in terms 
of governance, in terms of some of the issues that have been 
talked about here that serve as the underlying issues that lead 
to radicalization or terrorism.
    What we can do, and what we should be doing and what we are 
doing is working with these countries to help provide a secure 
environment so that they can then develop and establish the 
forms of governance and society that are important to their 
growth economically, politically, and what have you. We are not 
trying to impose our solutions on others is really what I meant 
there.
    Africa is a diverse, large and diverse continent, over 50 
countries there. It is, it is absolutely huge. And the history 
of those countries, the cultures are all different. So what we 
are trying to do is we are trying to get at the problem that we 
are talking about here, countering terrorism and extremism in 
order to provide a security setting where others like the 
Department of State can come in and help assist those countries 
develop their own indigenous solutions, keeping in mind that 
each starts from a different place historically, culturally, 
and what have you.
    That is really what I meant. We are not trying to impose a 
solution on them.
    Mr. Curtis. All right. I think it caught my attention 
because I think that is frequently an error we make in lots of 
problems, and I wanted to emphasize that.
    Thank you. I yield my time.
    Chairman Royce. Okay. We have Ted Lieu of California.
    Mr. Lieu. Thank you, Mr. Chair, for calling this important 
hearing. I appreciate it. And thank you, Secretary Sullivan and 
Secretary Trachtenberg for your service.
    Did I pronounce that right, sir?
    Mr. Trachtenberg. Yes, sir.
    Mr. Lieu. All right, thank you.
    I would first like to start off asking you, Secretary 
Trachtenberg, in your written testimony you stated that we need 
a whole of government approach to defeat terrorism. Does that 
include a State Department?
    Mr. Trachtenberg. Oh, absolutely.
    Mr. Lieu. And I just want to say that the proposed massive 
cuts by Secretary Tillerson to the State Department, as well as 
President Trump's failure to nominate individuals for high 
level State Department positions have hurt U.S. national 
security. If those things are not corrected it will further 
hurt U.S. national security.
    So, Mr. Chair, I would like to enter for the record a 
letter to Secretary Mattis dated March 10th, 2017.
    Chairman Royce. Without objection.
    Mr. Lieu. Thank you.
    This letter is from national security experts and former 
government officials from across the political spectrum. And in 
it they state that ``even small numbers of unintentional 
civilian deaths or injuries, whether or not legally permitted, 
can cause significant strategic setbacks. For example, civilian 
deaths from U.S. operations can cause partners and allies to 
reduce operational collaboration, withdraw consent, and limit 
intelligence sharing, increase violence for militant groups, 
and foster distrust among local populations.''
    I support the Department of Defense operations around the 
world to go after terrorists. I served on active duty in the 
military. When it comes to terrorists, I believe we should hunt 
them down and kill them. But we should also protect civilians 
because it will harm our U.S. national security if we don't. So 
I have seen troubling rises in civilian casualties across DoD 
operations such as, for example, in Operation Inherent Resolve. 
This is not a partisan issue. That started under the Obama 
administration, civilian casualties started rising. It 
continues today. The New York Times did a very large expose on 
that.
    And I have before me two Daily Beast articles I would like 
to enter for the record as well at the appropriate time. And 
the first one is dated November 29th, 2017. It is titled 
``Strong Evidence that U.S. Special Operations Forces Massacred 
Civilians in Somalia.''
    The second is dated December 6th, 2017, saying ``On the Eve 
of Congressional Hearings New Evidence about Alleged U.S. 
Massacre in Somalia.'' And what the Daily Beast articles say is 
that they did an investigation and they state that U.S. Special 
Forces killed unarmed civilians in Somalia on August 25th. We 
have been in contact with Africa Command. They deny that. And 
they say they have done an assessment. Their assessment is that 
those casualty figures are incorrect, that everyone that was 
killed was essentially an enemy combatant.
    So my question for you is is there going to be any further 
investigation or assessment or is that, is that it? Is there 
going to be any further?
    Mr. Trachtenberg. Congressman Lieu, my understanding of 
that incident and AFRICOM's response is precisely the way you 
have described it.
    I do want to make clear that we in the Department of 
Defense take any accusations of civilian casualties very 
seriously, and we work to avoid them at all costs. You are 
correct, AFRICOM recently conducted and concluded an assessment 
into this particular incident. The key finding from that was 
that the only casualties suffered were those of armed enemy 
combatants who had fired upon U.S. and Somali forces, and that 
the allegations of civilian casualty, the charges of civilian 
casualties were not credible.
    I will be happy to look into your question in terms of will 
there be a follow-on to this. But the information I have as of 
this time supports the conclusions of AFRICOM that you have 
mentioned.
    Mr. Lieu. Thank you.
    So, in light of this new Daily Beast article dated December 
6th where they provide additional evidence, I strongly urge the 
Department of Defense to conduct a further investigation as to 
what actually happened on August 25th.
    Mr. Trachtenberg. I will take that back.
    Mr. Lieu. Thank you.
    I have limited time remaining, so let me just again say 
that I want to thank both you and Secretary Sullivan for your 
public service and appreciate your being here today.
    Chairman Royce. Congressman Darrell Issa of California.
    Mr. Issa. Thank you, Mr. Chairman. Secretary Sullivan, I am 
going to direct my questions primarily to you.
    Currently, to use a term, you are dual-hatted. You have got 
the management portfolio and the conventional deputy; correct?
    Mr. Sullivan. That's correct.
    Mr. Issa. Okay. And in your opinion--well, let me rephrase 
that. The continent of Africa and its billion people have a 
number of problems we have talked about today, including a 
number of terrorist groups who now are aligning themselves with 
ISIS, obviously human trafficking, and the like. It was 
mentioned in opening statements that the Department of 
Defense's budget to combat this is roughly equal to your 
budget.
    This is an area of great threat. It is larger than the 
United States, meaning that relief efforts for our men and 
women, your men and women of the State Department and 
affiliated organizations basically, it is tough. Benghazi was 
the closest point to Europe practically, and the relief effort 
took more than 13 hours.
    So I want to go through a couple of questions related to, 
if you will, your management hat as deputy. I was recently, 
Thanksgiving weekend, in Zimbabwe for the change that you only 
get once every 37 years, so you take it when you can. And I 
want to thank the State Department for working so hard to make 
that mission possible.
    I also toured the new facility there, a $220 million 
facility arriving on time later next year. But I noticed that, 
first of all, it is an expensive facility. It was built at 
twice the size of our existing facility. And it was built based 
on a decision made during the last administration, which was to 
give up the standard design, in other words builds that are 
cookie cutters that allow for faster and less expensive 
facilities.
    Since this committee and the appropriators give you a 
limited amount of money, that facility, which took a long time, 
cost $220 million, is an exception to the otherwise aging 
facilities that don't meet Inman standards, that are not safe, 
and they are, many of them, are in Africa. And although this 
structure is beautiful and it has architect--by the way, it has 
completely curved walls, continuously curved walls which turns 
out to be really hard to do and a little bit impractical.
    So, what will you be doing to return to a process in which 
the dollars the American people invest specifically in 
facilities and security go further, particularly in dangerous 
areas like Africa?
    Mr. Sullivan. A very important question, Congressman Issa. 
And it is a phenomenon that we have seen, I have seen in the 7 
months that I have been in office where the length of time it 
takes for an Embassy to be--site to be picked, plans developed, 
built, and so forth, our mission will often change.
    For example, in Iraq we built an enormous Embassy in Iraq; 
much of it we don't need now. So there is a lot we. We have had 
a----
    Mr. Issa. I was also in Baghdad----
    Mr. Sullivan. Right.
    Mr. Issa [continuing]. A couple weeks earlier. And what 
you, what you need is an overhead cover from things dropping 
into that Embassy.
    Mr. Sullivan. So it is very important. It is part of the 
Secretary's redesign looking at OBO and our planning for 
Embassies. It is a huge amount of money as a part of our budget 
that we spend. And I have spoken to our IG about this, IG 
investigations and how we have been spending money. Very 
important issue, particularly if, as we have discussed a lot 
today, the State Department budget getting cut or whether it 
will, making sure that those dollars we spend on our Embassies 
are spent effectively to promote the safety of our women and 
men, but also that we have the right-sized Embassy, right size 
building for the post we need.
    Mr. Issa. So it is fair to say that one of the challenges 
is these lead times under these custom designs is so long----
    Mr. Sullivan. Right.
    Mr. Issa [continuing]. That often what you end up with is 
not what you need by that time?
    Mr. Sullivan. Eventually, that is right.
    Mr. Issa. Obviously you are still looking at Britain. We 
will talk offline at the problems of that billion dollar-plus 
facility.
    But one of the other last questions is would you consider 
bringing to this committee for authorization a revised grand 
plan of how you get to where every facility, at least in what 
we would call high-stress or dangerous areas, can be upgraded 
in a timely fashion?
    In other words, I know with your budget you are looking our 
decades and, you know, where Papua New Guinea is getting one, 
places in Africa are not, would you consider bringing to us a 
comprehensive proposal and then allowing that increased speed 
with which you will be able to do it if you return to a 
standard design platform so that this committee could consider 
the additional funds leaped ahead to get us from a very 
dangerous area in which the next Benghazi could happen at any 
time, to an area in which the men and women who go around the 
world on behalf of us could be secure?
    And, Chairman, I appreciate the time but I would hope the 
Secretary could answer.
    Mr. Sullivan. Yeah, not only would I consider it, I would 
welcome it and look forward to having that conversation with 
you and members of the committee, including on our Embassy in 
London.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    Adriano Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman, Ranking Member 
Engel. Thank you for coordinating this hearing on the U.S. 
efforts to counter terrorism in sub-Saharan Africa. I am glad 
both the State Department and the Department of Defense are 
here today.
    Given the October ambush of U.S. military personnel in 
Niger which took the lives of four U.S. soldiers, including 
Army Sergeant La David Johnson, David Johnson whose body was 
found days after the attack, as well as the expansion of Boko 
Haram across Nigeria's borders, and even the current slave 
auction crisis in Libya, I think that all these warrant a more 
robust approach, more funding, more efforts both by the State 
Department and Department of Defense to expand its regional 
counterterrorism assistance programs in Africa.
    We need to be investing more in our peacekeeping operation 
and other State Department efforts like USAID. This is 
necessary not just in Africa but in the rest of the world as 
well.
    Yet, we have seen the Department of Defense expand its own 
engagement in sub-Saharan Africa and has spent over $1.7 
billion for counterterrorism purposes in the past 10 years. 
Secretary of Defense Mattis said if we don't fund the State 
Department fully then we need to buy more ammunition 
ultimately. And that is beginning to play itself out as we 
proceed with these major proposed cuts. And we see that there 
is plenty of truth to that statement. And so why would the 
State Department cut its own budget?
    I want to, Mr. Sullivan, go right straight to a question 
which has really been troubling me for a long, long time, 
because this crisis, the kidnap of the girls by Boko Haram 
which--and I must commend Congresswoman Wilson for sort of 
keeping the eye on the ball on that issue--once it left the 
media has somewhat been buried. And what is the status of these 
girls that are still held captive by Boko Haram? How many of 
them do we know there's a possibility to rescue them, to get 
them back? What is the current status of these girls kidnaped 
by Boko Haram?
    Mr. Sullivan. It was a topic, an important issue for my 
trip to Nigeria, at our Embassy in Nigeria. And it may have 
left the front pages of the newspapers here in the United 
States but it has certainly not left the Embassy in Nigeria 
which is focused very acutely on this.
    There were, as you know, approximately 300 young women who 
were abducted, some of whom have been rescued or released or 
escaped. But there is a huge number that are still unknown. We 
don't know where they are. We suspect that they are still held 
captive. They may have been given as brides.
    It is something that both the United States and the 
Nigerian Government is focused very acutely on. I met with our 
security staff at the Embassy. I met with our local staff, 
local Nigerians who came up to me when I did a town hall to 
tell me how important it was to them that we are not forgetting 
about them and we are still working to track them and do all we 
can to rescue them.
    Mr. Espaillat. It just baffles me that we can probably put 
a man or a woman on Mars soon and we can't find out where these 
girls are. I am just very concerned that maybe too little too 
late when we get to them. So, I would encourage both the State 
Department and the Department of Defense to continue robustly 
looking for them.
    On the slave auction matter which is a horrible modern 
slave trade story, is there anything you can share with us on 
that? What is the magnitude of it? Who is involved in it? Who, 
who are the slave owners in this?
    We want to know who is engaged in this. Is there any, any 
country or any sector of our society in a country that is 
acutely and vigorously involved in this and benefitting from 
this?
    Mr. Sullivan. So, the focus is in ungoverned areas in 
Libya. And I have already committed to get back to the 
committee with a report on more intelligence, specific 
intelligence that we could provide in a closed setting on what 
we know about those who are, are involved.
    But I would say the central problem is that these camps are 
in ungoverned areas, in enormous countries with ungoverned 
areas. And that also may explain why, to our first point that 
we discussed about the young women who are still missing, there 
are ungoverned areas where we don't have a lot of access or 
intelligence. So it is something we need to work on.
    Mr. Espaillat. What about our allies? For example, Italy 
seems to be very concerned with the outlawness of Libya. And 
they are having a serious migration issue in Italy, and across 
Europe I may add because Italy will be the port of entry for 
that migration coming from Libya. Do they have any 
intelligence, do they have any information about this?
    Mr. Sullivan. I have met with the Carabinieri, actually the 
head of the Carabinieri to discuss the immigration problem from 
Libya. This was several months ago. Italy has a very close 
relationship with a number of groups in Libya and what is I am 
sure a source of intelligence that we can rely on.
    Chairman Royce. We need to move to----
    Mr. Espaillat. Thank you, Mr. Chairman, for the time.
    Chairman Royce. Thank you very much, sir.
    We need to move to Tom Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman. I am going to go 
relatively quickly. Unless I address you, Mr. Trachtenberg, I 
apologize, my question is directed to the Deputy Secretary. I 
would hope that you would appreciate the fact that I have a 
finite amount of time. And if it is a yes or no question, give 
a yes or no answer.
    On the Sudan, I have also been there, I would commend this 
administration for the progress made in that country. And I 
point out that by virtue of the fact that we have heard so many 
doom and gloom stories from those who don't understand the 
Vandenberg concept that politics stops at the water's edge. Has 
Sudan historically in the last 30 years been a kind of bad 
actor?
    Mr. Sullivan. Yes.
    Mr. Garrett. And so, have they also been listed on the 
State Sponsors of Terror List?
    Mr. Sullivan. They still are.
    Mr. Garrett. At some point they were accused of harboring a 
guy named Osama bin Laden; correct?
    Mr. Sullivan. They did indeed.
    Mr. Garrett. Okay. And they harbored FBI bomb plotters as 
well back in the '90s; correct?
    Mr. Sullivan. Many bad actors, yes.
    Mr. Garrett. And so when I was there I had the opportunity 
to meet with Mr. Atta, who heads NISS there, a very powerful 
man. I was encouraged by some of the words and deeds. And while 
there is a long way to go yet, we are making progress at 
advancing human rights, religious freedom, and reducing their 
role in terror in the Republic of the Sudan. Is that a fair 
assessment?
    Mr. Sullivan. That is.
    Mr. Garrett. And so would you say that is a success story 
of this administration on foreign policy?
    Mr. Sullivan. Partial success, yes.
    Mr. Garrett. Sure, there is a lot left to do.
    And so you have also spoken to the reduction in funds as it 
relates to the success of programs on small scales, things like 
school feeding programs, and water purifications in villages; 
correct?
    Mr. Sullivan. The need for those and the small scale 
programs are the most effective.
    Mr. Garrett. It is a lot easier to lose money when we spend 
lots of it than it is when we address a specific issue; 
correct?
    Mr. Sullivan. Well said.
    Mr. Garrett. Okay. And so I have been a champion of things 
like school feeding programs. I would point out and ask you if 
you agree that there is a reduction in long-term radicalization 
when we see women get educations. Is that an accurate 
statement?
    Mr. Sullivan. I don't think anybody could deny that.
    Mr. Garrett. And there is an increase in economic 
achievement where we see school feeding programs and 
articulate, educated women as well; correct?
    Mr. Sullivan. I would think so.
    Mr. Garrett. And these are things like McGovern-Dole 
feeding programs that aren't massive programs but that we 
should spread out as small programs. They work; right?
    Mr. Sullivan. Yes.
    Mr. Garrett. Okay. So this is just a history for me.
    I spoke briefly earlier of Arthur Vandenberg. Are you 
familiar with Arthur Vandenberg?
    Mr. Sullivan. I am.
    Mr. Garrett. Okay. And so you are aware that Mr. Vandenberg 
was the chair of the Senate Foreign Relations Committee and was 
running against Truman we thought when he was encouraged to 
attack Mr. Truman on foreign policy matters. Are you familiar 
with the story?
    Mr. Sullivan. I am.
    Mr. Garrett. And Mr. Vandenberg said, ``I simply won't do 
that because politics should stop at the water's edge.''
    Mr. Sullivan. Yes.
    Mr. Garrett. Okay. I am disheartened by the fact that that 
doesn't appear to be the case today. I was taken aback, and in 
fact wrote down the words verbatim of a member previously who 
said, and I quote, ``Wherever you go anywhere in the world 
people from State pull you aside and tell you how upset they 
are, how they feel like the administration is really going 
after the State Department.''
    Did you hear that testimony earlier? Does that sound 
familiar?
    Mr. Sullivan. I believe a member said that, yes.
    Mr. Garrett. Okay. What I would submit is that this is 
actually the State Department going after the administration. 
So let me ask you this: The people in State who are complaining 
that the administration is going after them, who elected them?
    Mr. Sullivan. Employees of the State Department are Civil 
Service and Foreign Service.
    Mr. Garrett. So they are not elected by the people of the 
United States.
    Mr. Sullivan. Right.
    Mr. Garrett. And who are they held accountable to?
    Mr. Sullivan. They are held accountable to the Secretary.
    Mr. Garrett. And he works for?
    Mr. Sullivan. The President of the United States.
    Mr. Garrett. Okay. And is policy making vested in the 
individuals who complain about how they are being treated by 
the administration?
    Mr. Sullivan. I----
    Mr. Garrett. They are not policy makers, correct, they are 
executioners of policy?
    Mr. Sullivan. It is hard for me to answer that because of 
defining who a policy maker is.
    Mr. Garrett. Well, I will submit this: I wore the uniform 
of the United States military for a number of years and 
oftentimes I was told to do things that I didn't necessarily 
agree with on my ideological scale, but so long as they were 
lawful orders that didn't violate the international laws 
governing the actions of military force I executed those orders 
without complaining to Members of Congress when they showed up, 
say for example, in the dining facility at Camp Dobol in 
Bosnia-Herzegovina.
    And so I would ask you if you would be willing to convey to 
the members of the State Department that they were not elected, 
that they are not policy makers, that they are executioners of 
policy, and so long as the policy that they are asked to 
execute does not violate international laws that they should do 
their jobs or find some other place to go.
    Now, I say that with respect and regard to the fine 
professional individuals from the State Department who helped 
me extract nine Christian refugees from the Republic of the 
Sudan earlier this year. There are wonderful people at State. 
But when an administration changes it is not your job to grab 
us by the sleeve and complain that you don't think the 
President is treating you well. It is your job, as Tennyson 
said, to do your job.
    And, finally, are you familiar with the statement made 
earlier in this hearing where an individual said it seems to be 
a Republican obsession with abortion? Do you recall that test--
that question, line of questioning?
    Mr. Sullivan. I believe so, yes.
    Mr. Garrett. Okay. I would submit that perhaps it is not an 
obsession with abortion but an obsession with protecting the 
preeminent, God-given, human right which is the right to life. 
And I would submit that the obsession is on the part of those 
who believe that U.S. foreign policy hinges on funding 
abortions of people in the developing world.
    And so, candidly, I thank you for the good work you are 
doing. I appreciate the progress we are making in places like 
the Republic of the Sudan. I appreciate the great help that we 
receive from people in the State Department. But if you don't 
agree with the policies coming out of the administration, 
please convey to the members of the staff that might disagree 
they should run for President.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We go to Mr. Bradley Schneider of Illinois.
    Mr. Schneider. Thank you. And again thank you to the 
witnesses for spending your time with us today and sharing your 
perspective. I am, likewise, going to spend most of my time 
with you, Mr. Sullivan. No disrespect to Mr. Trachtenberg.
    There are many reports out that say there are many 
vacancies within the State Department. Just as an example, the 
Ambassador to South Korea is vacant. There are reports out that 
morale is low. And you are hearing it from former policy makers 
who would know and have a perspective.
    We are managing in a world at a time when there is ever-
increasing danger, ever-increasing complexity managing a 
larger, growing, significant number of priorities with a 
smaller staff and a requested smaller budget. So my question to 
you, Mr. Sullivan, is as you look at the world, as the State 
Department looks at the world as you are trying to manage your 
resources, what priorities have had to be moved to the outer 
ring or the back burner?
    Mr. Sullivan. Our priorities, defining our priorities----
    Chairman Royce. Mr. Sullivan, are you sure the button is 
pushed, sir?
    Mr. Sullivan. My apologies. It is my first--I usually 
forget to do that more often in a hearing. This is my first 
error. I apologize.
    We have defined our priorities as protecting the United 
States, promoting security of the United States, and also 
promoting U.S. economic prosperity, two principal, two 
principal goals of this administration. Everything else flows 
from that: Supporting our allies; working to address threats, 
whether it's the DPRK----
    Mr. Schneider. So let me reclaim my time. And I appreciate 
that and protecting the United States' interests----
    Mr. Sullivan. Yes.
    Mr. Schneider [continuing]. I would posit is more of a 
mission statement than priorities.
    Mr. Sullivan. Right.
    Mr. Schneider. Within those priorities are there places 
around the world where we are going to dedicate more resources, 
whether it is working to make progress in Sudan, which I 
commend you for the progress that has been made. But we have 
concerns about what is happening in North Korea. We have 
concerns about losing ground to Iraq--or to Iran rather in 
Syria and Iraq and Yemen. We have concerns about what is 
happening in Latin America.
    The best way to fail is to try to do everything all at once 
with unlimited resources. We don't have unlimited resources. We 
are pulling back resources. And so I would hope that within the 
broad context of the world with increasing challenges, we are 
putting at the top of the list the most significant, most 
important priorities, but with limited resources some have to 
drop.
    So, my question is what priorities are being pushed down 
the list because of loss of personnel, lack of resources, 
decisions to say that this is not where we are going to put our 
resources today?
    Mr. Sullivan. Well, there is a process that is managed by 
the White House, the National Security Council, to prioritize 
our security and our foreign policy. And that process is 
ongoing in this first year of the administration.
    It is hard for me to say. There isn't a, there isn't a 
process that says we are not going to do X, Y, or Z. And it is 
hard for me sitting here to say we are not going to do 
something because we do have posts, you know, we are in 190 
countries. We cover the world. So, we do cover everywhere.
    Mr. Schneider. Right.
    Mr. Sullivan. So it is difficult for me to answer.
    Mr. Schneider. I hear you.
    Mr. Sullivan. But the thrust of your question----
    Mr. Schneider. I mean, the concern, and I think this has 
been shared by many others with far more experience in foreign 
policy than I have, including former Secretaries of State, is 
that with the decision not to fill spots, with the decision not 
to commit resources we are putting at risk some of our 
interests and putting at risk America.
    But I want to change gears for 1 second and go back to a 
conversation you had with my colleague from Rhode Island. He 
asked you about the report in the context of the Child Soldiers 
Prevention Act. And you asserted to Mr. Cicilline that the memo 
and the decision to exclude three countries, Afghanistan, Iraq, 
and Burma followed that. But there is a, through the proper 
channel, the dissent channel, a memo that says that that was 
not correct, that these three countries, Afghanistan, Burma, 
and Iraq have recruited, have used child soldiers.
    And if it is okay, I would like to have this included in 
the record. But could you touch on that a little bit?
    Mr. Sullivan. Sure. I am aware of the dissent channel 
message that you have mentioned. My description was the process 
that the Secretary went through 6 months ago when that decision 
was made, what he did. There has been a subsequent dissent 
channel message which you have which the Department responds 
to.
    And I don't know, given the timing, whether the Department 
has submitted a response to that. But the usual process is that 
there is a response from the Department when a dissent channel 
message comes in because we take those very seriously.
    Mr. Schneider. Okay. And, again, just emphasize the concern 
that the Secretary is not listening to some of the people who 
are in the field who have an understanding. This was a broad, 
this wasn't just a few people, there were many people who 
signed on to this dissent memo. And without objection I would 
ask that this is included in the record.
    Chairman Royce. Without objection.
    Mr. Schneider. Thank you. My time has expired.
    Chairman Royce. Thank you.
    Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    I first of all want to apologize for not being here for 
most of your testimony here today. We had the FBI Director in 
Judiciary; had to be over there for that and came back.
    But since she is still here, I would like to give credit to 
my colleague from Illinois Robin Kelly for introducing, along 
with myself, some legislation awhile back, the Protecting 
Girls' Access to Education Act, which passed this committee 
thanks to Chairman Royce here, and went to the Floor and passed 
the full House of Representatives. And the Senate is 
considering it right now. We hope we will get this to the 
President's desk.
    And in essence what this does is it says that in conflict 
areas, and God knows we have those in Africa, obviously Somalia 
comes to mind and others, it seems like a good idea to 
prioritize education and emphasizing that for children, 
especially girls but boys as well, so that we are able to give 
them the opportunity, alternatives to the extremism that 
exists, obviously oftentimes radical Islamic fundamentalist 
extremism, but other extremisms as well, and abuse that occurs, 
a whole range of abuses. And so I think it is great legislation 
and I want to once again publicly thank Ms. Kelly for her 
leadership on that issue.
    And would just ask the State Department are you aware of 
the legislation? Are you considering the implementation of it 
once it is passed by the Senate and signed by the President? 
And are there other education initiatives that the State 
Department currently has that could be beefed up in conflict 
areas to help too? And obviously, you know, this is only one 
small aspect when you are talking about the overall battle 
against extremism. But, Mr. Sullivan, if you could just 
comment?
    Mr. Sullivan. I am aware of the bill. I don't know that 
there has been a SAP or an administration or even a Department 
view on it. It sounds like a terrific idea to me. But that is 
just me speaking.
    Be happy to take that back and seek more formal views for 
that for both of you.
    Mr. Chabot. Yes, we will make sure that our personal staffs 
and the committee staff get with the State Department folks to 
make sure that you are ready when it passes. I understand that 
there is lots, thousands of bills that get----
    Mr. Sullivan. Right.
    Mr. Chabot [continuing]. Introduced all the time. This one 
actually made it through the Floor. It is bipartisan. I think 
it has a great chance over in the Senate.
    Mr. Sullivan. Sure.
    Mr. Chabot. And would be, at least play small role.
    Mr. Espaillat before was talking about a couple of things 
that I have also over the years been concerned about, and I 
know the public has been. Seems that there is an ebb and flow. 
When the media is interested in it people find out about it, 
they think it is horrible, they want to do something about it. 
You hear it for a few days or a few weeks and then it kind of 
goes away. And one of those is, obviously, Boko Haram and the 
kidnaping of the 300 girls.
    And you already talked about it at some length. But I, I 
share his frustration on this. And you expressed that also, Mr. 
Sullivan, so I am not going to again go into it in great 
length. But there are things which happen in Africa which are 
just horrific. The Lord's Army with Joseph Kony is another one 
that got the attention of people on the Internet for a while 
there. But ultimately what happened? Did they bring the guy to 
justice? Did they destroy the army, et cetera?
    And there was a military aspect to this. So I don't know 
if, Mr. Trachtenberg, if you wanted to talk a bit about what we 
are doing relative to these types of groups that are a danger 
not only to those countries but can, because they do cooperate 
with terrorist groups, whether it is ISIS or anybody else, if 
you could just talk about how our military forces are engaging? 
And maybe we are more active on that than perhaps we once were.
    Mr. Trachtenberg. Well, Congressman, just generally let me 
reemphasize the point that our engagements with partner 
countries are done to bolster, primarily to bolster their 
capacities to provide for their own security and to deal with 
situations such as the one you described. I would say that what 
DoD does and how DoD operates, we are essentially an enabler. 
And I say that, in fact I would say we are a double enabler.
    On the one hand, our operations with partner countries are 
designed to enable their forces, their militaries to provide 
security and to deal with the threats that they face. I say we 
are a double enabler because on the other hand I think what we 
are doing and attempting to do helps to enable our interagency 
partners as well, including the State Department. And the issue 
of NGOs was mentioned earlier. But that is critically 
important.
    And I think the one thing that I am taking away from this 
hearing so far is the clear emphasis on the need for and sort 
of an intergovernmental approach to dealing with these issues. 
It is crystal clear. Our role is a part of that at DoD but in 
no means an exclusive, an exclusive role.
    Mr. Chabot. Exactly right. If I could just conclude, that 
is why it is so important I think that our military folks and 
our State Department work together. And ultimately is what is 
in the best interests of the U.S., and that generally is we get 
constituents that will communicate, why do you care about fill 
in the country? You need to be working here.
    Those things that happen over there can affect us right 
here. And oftentimes when our military is involved it is a 
relatively small number of people and we are working to make 
those indigenous forces able to handle the terrorism so that it 
is over there and dealt with and not here on American soil.
    Mr. Trachtenberg. Yes, sir.
    Mr. Chabot. I yield back. Thank you.
    Chairman Royce. Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chair, and thank you to my 
colleague.
    I did want to follow up on what my colleague said because 
we had a meeting with Ambassador Haley and she talked about 
despite all the suffering, the hunger, the sexual assaults, and 
on and on and on, when they ask the, particularly the young 
people what they want and they say an education. So they see 
that as their ticket out of that situation.
    The United States and the Government of Niger recently 
agreed upon a memorandum of understanding that would allow the 
DoD to arm U.S. drones currently stationed in that country. And 
yet AFRICOM has stated the U.S. military does not have an 
active, direct combat mission in Niger. There seems to be a 
disconnect in some way.
    What is the time line for arming U.S. drones in that 
country? And how and under what authorities will they be used? 
And either one or you or both of you can answer.
    Mr. Trachtenberg. I cannot address the specifics of that 
question here, Congresswoman, but I would be happy to take that 
one for the record.
    Ms. Kelly. Okay, thank you.
    And then, Mr. Sullivan, many of the security cooperation 
programs and activities include State Department involvement in 
the decision making process. Given all the vacancies that we 
have talked about over and over in the State Department, do you 
feel that State is having its voice heard during the 
interagency process? Do you feel like there is enough people 
there to speak at the table?
    Mr. Sullivan. Yes. And to address your question in two 
ways, first, specifically at post where there is coordination 
between the Ambassador, the Chief of Mission, and the U.S. 
military in Africa would be AFRICOM. There has been 
extraordinary cooperation between, for example, our Ambassador 
to Libya and General Waldhauser.
    So, at post I think there is--and it is something that both 
Secretary Mattis and Secretary Tillerson stress a lot to 
everyone who works for them, so I think that is filtered down 
through the chain. Our voice in the interagencies here in 
Washington is something that I am largely responsible for, 
participating in the deputy's committee meetings at the, at the 
White House, along with my colleague and partner here Under 
Secretary Trachtenberg.
    But the question, your question really gets to why we need 
those positions filled. And I want to correct a misimpression. 
We in this administration, we in the State Department didn't 
set out to leave these positions unfilled. We haven't done a 
good job of filling them for a number of reasons, including 
slow in picking nominees, slow in getting them through the 
vetting process. And then we run into the challenges with the 
Foreign Relations Committee.
    So, I discussed with another member earlier, I forget who 
asked or cited a figure that 50 percent of the slots are 
unfilled. I would say probably of that 50 percent, 40 percent 
we have a person identified. For example, I can't announce the 
person's name because the person hasn't been announced yet, but 
we have a person picked to be our Ambassador to South Korea. 
But they haven't gone through the clearance, and they have been 
in the clearance process it seems like forever.
    Ms. Kelly. I wanted to ask specifically for the Trans-
Sahara Counterterrorism Partnership, is funding and attention 
still being focused toward justice sector support, counter 
radicalization programs, and public diplomacy efforts? And are 
there any successes that you would like to share? Because I do 
agree with what my colleague from Illinois said that we need to 
hear more about, you know, the good things and the successes.
    Mr. Sullivan. I will have to get back to you with that to 
provide. I want to provide precise information, numbers and 
facts, which I have an impression but I want to give you 
precise information. So, if I could, I will take that for the 
record and get back to you.
    Ms. Kelly. Okay. And I yield back. And thank you very much.
    Mr. Sullivan. Thank you.
    Chairman Royce. Thank you. We go to Dina Titus of Nevada.
    Ms. Titus. Thank you, Mr. Chairman. And thank you for being 
here.
    In addition to being on this committee which I enjoy very 
much and I value, I am a member of the House Democracy 
Partnership. We work with our legislative colleagues around the 
world in developing democracies, including Kenya and Tunisia, 
to help build democratic institutions and encourage civic 
engagement. Our work, though, has to be backed up by USAID and 
the State Department. So when we see those programs being 
diminished, that hurts what we are trying to do.
    My colleague from Virginia seemed to suggest that the 
people who are concerned about what is happening in the State 
Department are just a bunch of carping employees. And that is 
certainly not the case. I meet with diplomats and 
parliamentarians from the around the world, and they 
consistently, no matter where they are from, tell me how 
concerned they are about the U.S.'s diminished role in world 
diplomacy.
    So, I want you to know that we believe those are real 
concerns. And we are hearing them not just from the employees 
of the State Department but from world leaders from all parts 
of the globe.
    I have a specific question though, and either one of you 
can answer. And I appreciate it.
    Earlier this year the U.S. decided to terminate what was 
called Operation Observant Compass that was to counter the 
Lord's Resistance Army in Central Africa. And I am curious to 
hear if that decision has created a security vacuum in that 
part of the world where U.S. military used to operate and if 
that security vacuum has led to an increase in poaching and 
illegal ivory trade and trafficking.
    In November the President and our Interior Secretary Zinke 
announced the administration's reversal of a ban on the 
importation of ivory that came from Zambia and Zimbabwe. That 
has been stopped, thank goodness. And I commend our chairman 
for weighing in on that and thank him very much. But we know 
that there has been shown a link between illegal poaching and 
ivory trafficking to gain funds to support terrorism. I just 
wish you two would comment on that and see if there is anything 
being done about it.
    Mr. Trachtenberg. Congresswoman, let me start on the 
termination of Operation Observant Compass. There is little 
that I can say to you on that other than it is my impression 
that it has not created a security vacuum. But I do not have 
the details here and would be happy to go back and try to 
gather a little more information on that.
    Ms. Titus. Thank you. I would appreciate it.
    Mr. Sullivan. I would just add that one of the factors that 
we considered in our decision to partially lift sanctions on 
Sudan was the Government of Sudan's cooperation in our pursuit 
of the LRA. I would defer to DoD on where that stands.
    But the other point I would make is transnational criminal 
organizations, those that traffic the way you described, they 
do support terrorism and they are a scourge. And we need to 
address them.
    Ms. Titus. Do you have any specific plans to do that?
    Mr. Sullivan. Well, we have, for example, for narcotics 
trafficking----
    Ms. Titus. Yes.
    Mr. Sullivan [continuing]. We have, in the Western 
Hemisphere, we have a number of programs--INL, a bureau at the 
State Department--a number of programs to address that. But in 
sub-Saharan Africa wildlife trafficking is a problem that you 
have identified. I can't say that we have devoted all that we 
should to address it, but it is not just a crime and 
participated in by transnational criminal organizations, but 
that money finds its way to bad actors who harm us in other 
ways.
    Ms. Titus. Well, I would like to see you take a little more 
effort to address that because I think it was, as you say, that 
it is funding some of these terrorist activities, and you would 
be doing well by doing good.
    Thank you. I yield back, Mr. Chairman.
    Chairman Royce. Thank you. We go to Mr. Brad Sherman of 
California.
    Mr. Sherman. Mr. Sullivan, your department spends pennies 
compared to Mr. Trachtenberg's department spending dollars, and 
one of the major efforts of your department is that we don't 
have failed states. When we are successful in that, then Mr. 
Trachtenberg doesn't need to get involved. Which is why I would 
point out that when it comes to our foreign aid we gave foreign 
aid to Germany and France in the '40s. Today they are donor 
countries. We gave foreign aid to Taiwan and South Korea in the 
following decades. Seems like foreign aid might be a very good 
investment.
    The one thing I would like to focus on in foreign aid is 
that in many countries--and I don't have a list in front of 
me--if you want to send your kids to school you have got to pay 
for the books. Now, that is the rule at American colleges, but 
it is the rule in first grade in a lot of countries. And it 
occurs to me, and I hope you will go back and look at this, 
that if we paid for the books, first, we would have some say in 
the content. I am not saying that you ask the San Francisco 
School Board to tell you what the content should be but we 
would have some say in the content.
    And, second, it is kind of hard to steal a book, especially 
in a country where due to the generosity of the United States 
school books are free. What are you going to do if you steal 
the book?
    And then the third thing in foreign aid is what I call flag 
on the bag. We often give bags of food. And often I have talked 
to foreign aid workers and they say, look, you are giving food 
to people, but 1 out of 20 people we are dealing with hate the 
United States. If we put the flag on the bag we have got a 
problem, we got this or that, so they hide it. Whereas, and of 
course they shouldn't be doing that. If we are paying for the 
books, you put the gift of the people of the United States 
right there on the front page. You know, even if somebody 
crosses it out, that just emphasizes it.
    So I hope you will go back and look at that both in terms 
of books is a good way to invest. And I realize that I am old 
fashioned. I like books, paper. So the same concept would apply 
with----
    Mr. Sullivan. I was having that same thought.
    Mr. Sherman. Yes.
    Mr. Sullivan. I prefer books but they probably want 
tablets.
    Mr. Sherman. There are still millions and millions of 
dollars----
    Mr. Sullivan. Exactly.
    Mr. Sherman [continuing]. That people, poor people in 
Africa are paying to buy paper books for this so their kids can 
go to elementary school.
    Let's see. Mr. Trachtenberg, the previous administration 
publicly released both the presidential policy guidance 
establishing procedures for approving direct action against 
terrorist targets and a comprehensive report on the legal and 
policy frameworks guiding the use of military force. Do these 
documents reflect the current administration's policies? If 
anything has changed, will you release updated versions of 
these public documents?
    Mr. Trachtenberg. Congressman, I appreciate the question. I 
would like to get back to you, if I might, with a more 
definitive answer on that.
    Mr. Sherman. You are burdened by the fact that I have been 
here a long time. And every time, almost every time someone 
says that I get back a nonsense answer.
    Mr. Trachtenberg. Well, I would----
    Mr. Sherman. Something that says, Congressman, we want to 
show you we are dedicated to helping the American people and 
the world.
    How comprehensive and clear and definitive is your future 
answer going to be?
    Mr. Trachtenberg. That is I understand the question, 
Congressman. I do not have the information now to be able to 
provide you with a detailed answer.
    Mr. Sherman. Can you commit to a detailed, clear, and 
definitive answer----
    Mr. Trachtenberg. I can commit----
    Mr. Sherman [continuing]. In a reasonable amount of time?
    Mr. Trachtenberg. I can commit to go back and to find the 
answer to the question and see what can be provided to you.
    Mr. Sherman. You can see why asking me to accept your non-
answer is subject to some concern. I don't think that we 
subpoenaed you here. I don't think we can force you to answer 
the question. But I think the people in this room are aware 
that you are refusing, that you are not willing to answer the 
question now, and they will all be looking for your written 
answer.
    Mr. Trachtenberg. Part of it, Congressman, is I think what 
you are asking for is a level of detail that I am not yet, that 
I do not yet have a full understanding but----
    Mr. Sherman. Okay. Now, what I----
    Mr. Trachtenberg [continuing]. I would like to have an 
understanding of.
    Mr. Sherman [continuing]. What I hope that you don't do is 
say, oh, it is classified, because you can get us a classified 
answer, too. But I will point out that the Government of the 
United States has officially released the fact that there are 
5,000 to 6,000 U.S. troops in Africa. And there is a host of 
other either widely reported by respectable sources or 
officially reported.
    So I hope can you get back to me within 2 weeks?
    Mr. Trachtenberg. I am happy to work with you and your 
staff to get back to you with a detailed answer, as detailed as 
we can provide in order to address your question.
    Mr. Sherman. I hope it is definitive. And we haven't worked 
personally together. Just so many other people sitting in that 
seat have failed to provide answers in the future. So I hope 
you change, hope you restore my faith in that chair. Thank you.
    Chairman Royce. Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And welcome to both, 
welcome back, Mr. Sullivan.
    Mr. Trachtenberg, I am following up on my colleague and his 
concern that all too often we will have to get back to you for 
the record translates into deflection, and not-on-your-life, 
and it will be gobbledygook if it is anything at all. You were 
asked by my colleague Karen Bass of California a reasonable 
question, how many troops do we have in Africa?
    Now, there are published reports that say 5,000 to 6,000. 
Can you confirm that? And if not, is it classified?
    Mr. Trachtenberg. Congressman, the public number is between 
5,000 and 6,000. That is correct.
    I think my earlier hesitation was based on the fact that I 
didn't want to get into specific numbers vis-a-vis specific 
countries.
    Mr. Connolly. Okay.
    Mr. Trachtenberg. But you are exactly right on that issue.
    Mr. Connolly. All right. So the range is accurate?
    Mr. Trachtenberg. Yes, sir.
    Mr. Connolly. All right. Thank you.
    Mr. Sullivan, I had the opportunity to talk about terrorism 
in the Maghreb at a speech I gave at CSIS this week. And it 
forced me to come think about, well, what are the elements we 
need in the counterterrorism strategy to be effective?
    And I was very gratified at your opening statement or how 
you closed your testimony by saying that we believe that 
traditional counterterrorism efforts alone are not enough. 
Economic reform, good governance, and a respect for human 
rights must be prioritized. That was a very heartening thing to 
hear.
    And just to kind of engage you a little bit on that, one of 
the things I really believe we have made a mistake on 
historically as a country, arguably for what we thought were 
better reasons, is that we ignore the need for pluralistic 
political space. The Shah of Iran is a great example. So the 
Shah says, ``I don't want you talking with the political 
opposition,'' to our Embassy, to our intelligence people, and 
we respect it. And as a result, you know, we haven't got a clue 
what is really going on in the country. And the only 
alternative to the authoritarian regime of the Shah is Khomeini 
and his crap.
    And had maybe we had a little more elbow room in order to 
encourage other political expression, perhaps that wouldn't 
have been the only alternative. And I think we repeated that 
similar mistake during the Mubarak years in Egypt.
    And we are looking now at the Maghreb, we are looking at 
Africa, we are looking at a lot of strongmen governments, how 
do we avoid making the mistakes of the past? What? Do you agree 
that political pluralism is also part of that good governance 
we have just got to foster and encourage?
    Mr. Sullivan. Undoubtedly. It's the sign of strength in the 
society of a culture. And you may not know this, I was smiling 
when you described the Shah. My uncle Bill Sullivan was the 
last U.S. Ambassador to Iran, so it may have been his failure. 
I apologize on behalf of my family if we weren't doing as good 
a job as we should have been.
    Mr. Connolly. I think it was really a U.S. failure and no 
one individual.
    Mr. Sullivan. Right.
    Mr. Connolly. And I think we were trying to respect a 
strong----
    Mr. Sullivan. Absolutely.
    Mr. Connolly [continuing]. Ally who was going to make the 
Persian Gulf, you know, but we didn't see the Shia revolution--
--
    Mr. Sullivan. That is right.
    Mr. Connolly [continuing]. And the effect of it and how it 
spread.
    Mr. Sullivan. Exactly.
    Mr. Connolly. And it is simply not in our interest to, 
frankly, honor those kinds of requests.
    So let's take Africa, which is what we are talking about 
today. Any hopeful signs in this regard in terms of good 
governance, civil society, political pluralism?
    Mr. Sullivan. So two of the countries that I went to, 
obviously mixed records but not all bad. Tunisia, serious 
economic problems; they have got to get their economic house in 
order. Budget deficit, they need a lot of economic help. But 
their government, their commitment to democracy, it is real.
    Nigeria, Buhari, the President has got health issues, 
there, there are good prospects there. But there are challenges 
as well.
    Mr. Connolly. Yes.
    Mr. Sullivan. Parts of the government and the military, as 
you well know, where we have got issues.
    There are bright spots. There aren't a lot but there are 
bright spots. And we need to encourage them. We need to show 
progress. And then we have precedents that we can cite to 
others.
    Mr. Connolly. There is one other thing I--I mean I have 
other things--but the other thing that I would highlight just 
for this purpose, I am running out of time and feel free, both 
of you, to comment but I will address it first to you, Mr. 
Sullivan, I am worried that we don't seem to yet have our arms 
around the appeal on social media of the ISIS, al-Qaeda, 
radical narrative. It seems beyond us that anyone would be 
attracted to give up their whole lives and go fight and miss 
their lives, and so forth, but they do, in the thousands.
    And the only way to address that is to A) knock down the 
narrative convincingly and have an alternative narrative that 
is equally or maybe more attractive. I wonder if you could just 
comment on how well do you think we are doing? What do we need 
to do with respect to social media?
    And with that, Mr. Chairman, of course I will yield back my 
time. But I think it is a very important aspect of the 
counterterrorism fight. We are not doing well.
    Mr. Sullivan. Agreed. We have established a Global 
Engagement Center to try to address this issue. We address it 
in two ways. The mission has expanded. We haven't--it was 
originally established to address the issue you have raised for 
ISIS, al-Qaeda use of social media. As a result of what 
happened with Russia and the impact on the election, it has now 
been expanded to state actors as well.
    So my concern is that we are broadening the mission of the 
Global Engagement Center when we really haven't gotten it 
focused on the more limited but extremely important topic of 
ISIS, al-Qaeda, those terrorist organizations which are using 
social media to recruit displaced, disadvantaged, disillusioned 
people. And I would say--you said thousands, I would say tens 
of thousands. A serious problem.
    I would defer to my colleague.
    Mr. Trachtenberg. Congressman, I would agree with 
everything that Secretary Sullivan has said. And, in fact, his 
citation of the Global Engagement Center I think is one of 
those areas where both the State Department and the Department 
of Defense have worked well and collaborated together. But I 
would agree more work is needed.
    Mr. Connolly. Thank you. And thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Connolly, and Secretary 
Sullivan and Under Secretary Trachtenberg for your testimony.
    As we have heard, State and the Defense Department provide 
critical training, equipment, operational support for our 
partner forces in Africa. So coordination between your agencies 
is going to be critical to success on these fronts. And our 
development of those systems is essential.
    The costs of our engagement on the continent in this battle 
against Islamists and other terrorism can be high. And we 
appreciate our servicemen and women and diplomatic personnel 
serving in very difficult and risky circumstances. But the 
threats are real, and our national security demands that we 
don't ignore them.
    As a reference here the comments made by my friend Mr. 
Connolly, he mentioned governance. Well, we have an election 
coming up in Liberia. It is critical that these elections be 
free and fair. We all understand the cost in the past under 
Charles Taylor of what happened in Liberia and West Africa. And 
now we have an opportunity to build on some measure of success. 
So this requires our engagement.
    And again I thank you both. And the hearing is adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned.]

 
                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
